           U.S. Department of
                                                                  Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   INFORMATION: Aviation Industry                                                   Date:    August 4, 2006
           Performance

  From:    Todd J. Zinser                                                                Reply to
                                                                                         Attn. of:   JA-50
           Acting Inspector General

    To:    The Acting Secretary
           Federal Aviation Administrator
           The Acting Assistant Secretary for
            Aviation and International Affairs

           Attached is the eighth in a series of periodic updates to our aviation industry
           performance report. The performance metrics were developed in 2002 as a
           mechanism for monitoring aviation industry trends, including domestic demand
           and capacity, aviation system performance, airline finances, and air service in
           small communities. 1 The point of reference or base year for most of the metrics is
           2000, when traffic and delays were at their peak.

           This year we found that while fuel prices have increased 31 percent from 2005, the
           airlines are in a better financial condition in 2006 than 2005 as a result of seat
           capacity reductions (-5 percent) and increased fares (+12 percent). Because of the
           capacity reductions, load factors (percent of seats sold) increased from 74 percent
           in 2005 to 77 percent in 2006.

           Capacity reductions have been more severe in the Midwest and South and have
           affected the smallest (non-hub) airports significantly more than large. Despite
           fewer flights, the percent of flights delayed in 2006 is about the same as 2000 at
           23 percent, as are the delay lengths (53 minutes). However; some airports have
           experienced significant changes in the number of delays since 2000, with delays
           decreasing by 53 percent in Pittsburgh and increasing by 59 percent in Memphis.

           Attached to this report are three exhibits: Exhibit A, Summary of Aviation
           Industry Metrics, which contains detailed textual and graphic presentations of

           1
               The performance metrics are based on data collected and processed by the Department of Transportation’s Office of
               Aviation Analysis, Bureau of Transportation Statistics (BTS), Office of Airline Information, and Federal Aviation
               Administration and by the Air Transport Association.
                                                                                                                     2

industry measures; Exhibit B, Scope and Methodology, which explains sources,
analyses, and terms employed; and Exhibit C, which lists Office of Inspector
General (OIG) contributors to the report.

The following highlights the most significant trends that have emerged since we
issued our last report in June 2005. 2

Fuel Costs Continue To Escalate, Driving Up Operating Costs

The average cost per gallon of jet fuel in May 2006 ($2.05) was 35 percent higher
than May 2005 ($1.52) and 193 percent higher than May 2002 ($0.70). Total
domestic fuel expense for the industry increased $1.9 billion in the first 5 months
of 2006 compared to a year earlier despite a 6 percent decline in flights.
Increasing fuel costs helped drive up unit operating costs (cost per available seat
mile or CASM) by 5 percent for network carriers and 9 percent for low-cost
carriers between the first quarter of 2001 and the first quarter of 2006. 3

The network carriers continue to whittle away at the low-cost carriers’ cost
advantage, with the gap in unit operating costs (CASM excluding fuel or
CASMEF) declining from 60 percent in the third quarter of 2001 to 24 percent in
the third quarter of 2005. Between these quarters, CASMEF for network carriers
declined by 23 percent and CASMEF for low-cost carriers declined by 1 percent
(see Figure I).
                  Figure I. Cost Per Available Seat Mile Excluding
                           Fuel (CASMEF) 4Q00 through 4Q05
                       11.0               3Q01 10.2¢

                       10.0
                                                                                                3Q05 7.9¢
                                                60% a




                            9.0
                    Cents




                            8.0
                                                                                                         24% a




                            7.0


                            6.0
                                                3Q01 6.4¢                                               3Q05 6.3¢
                            5.0
                                  4Q   1Q 2Q 3Q 4Q 1Q      2Q 3Q 4Q 1Q      2Q 3Q 4Q 1Q   2Q 3Q 4Q 1Q     2Q 3Q 4Q
                                  00   01 01 01 01 02      02 02 02 03      03 03 03 04   04 04 04 05     05 05 05

                                                        Netw ork Carriers          Low -Cost Carriers



2
    OIG Report Number CC-2005-057, “Aviation Industry Performance: Trends in Demand and Capacity, Aviation
    System Performance, Airline Finances, and Service to Small Airports,” June 30, 2005. OIG reports can be found on
    our website: www.oig.dot.gov.
3
    CASM has been adjusted to remove the effects of an accounting change requiring airlines to include the costs of
    affiliated regional airline operations within their total expenses.
                                                                                                                                                                                                                                   3

Despite Fuel Costs, Major Passenger Carriers Improve Their Financial
Condition by Reducing Capacity and Increasing Fares

In the first quarter of 2006, the major passenger airlines 4 posted an operating loss
of $461 million—a significant loss but a major improvement over the $1.5 billion
loss posted in the first quarter of 2005. Nine of the 16 major passenger airlines
posted profits in the first quarter of 2006.

The airlines improved their financial condition by taking advantage of strong
passenger demand competing for fewer available seats, which enabled them to
increase fares. Passenger demand, as measured by enplanements, was 6 percent
higher in 2005 than in 2000. Despite this increased demand, the airlines began to
reduce capacity in late 2005 in an effort to trim costs. In the first 5 months of
2006, the six largest network carriers combined scheduled 13 percent fewer
domestic flights and 18 percent fewer seats than they scheduled in the first
5 months of 2000. Compared to the first 5 months of 2005, flights are down
6 percent and seats are down 9 percent (see Figure II).

Figure II. Change in Scheduled Flights, 2001-2006 (Base Year 2000)


                    7%

                                                                                                                              Scheduled flights in July 2005 =
                                                                      Iraq War and SARS                                       scheduled flights in July 2000
                    2%




                -3%
          Percent




                -8%                                                                                                                                      United, US Airways, Delta,
                                                                                                                                                         and Northwest all in
                                                                                                                                                         bankruptcy

            -13%                                                                                                                                Fuel up 185% from 2000: $2.05/gallon

                                                                         Scheduled flights reach lowest
                                                                         point at -15% after 9/11
            -18%
                                  Apr-01




                                                                        Apr-02




                                                                                                            Apr-03




                                                                                                                                                Apr-04




                                                                                                                                                                                      Apr-05




                                                                                                                                                                                                                          Apr-06
                         Jan-01



                                           Jul-01

                                                    Oct-01

                                                             Jan-02



                                                                                 Jul-02

                                                                                          Oct-02

                                                                                                   Jan-03



                                                                                                                     Jul-03

                                                                                                                              Oct-03

                                                                                                                                       Jan-04



                                                                                                                                                           Jul-04

                                                                                                                                                                    Oct-04

                                                                                                                                                                             Jan-05



                                                                                                                                                                                               Jul-05

                                                                                                                                                                                                        Oct-05

                                                                                                                                                                                                                 Jan-06




By reducing capacity in an environment of higher demand, the airlines have been
more successful in raising and maintaining higher fares. These higher fares have
resulted in higher yields (passenger revenue per revenue passenger-mile).
June 2006 yields of 13.4 cents ($134 for a 1,000 mile trip) were 12 percent higher
4
    BTS defines “major” airlines as the 17 passenger airlines with annual revenues greater than $1 billion.
                                                                                  4

than June 2005, although still 8 percent below June 2000. In addition to raising
airfares, the airlines improved their yields in early 2006 by beginning to phase out
some of the lower-priced, less restricted business fares they had introduced in
prior years to recapture what was then a deflated business travel market.

Flights are More Crowded
Capacity reductions begun in late 2005 have resulted in 4.2 million fewer seats
scheduled in July 2006 than in July 2005. Combined with recent increased
enplanements, the load factor for major passenger airlines (the percent of seats
filled by a paying passenger) had increased to 77 percent in the fourth quarter of
2005, compared to 73 percent in the fourth quarter of 2004 and 69 percent in the
fourth quarter of 2000.

The Midwest and Northeast Lost the Most Air Service Since 2000
Since 2000, all regions lost service, but the Midwest and Northeast were most
affected. Nationwide, scheduled seats on domestic flights in July 2006 were
9 percent lower than in July 2000. In the Midwest, scheduled seats were
22 percent lower, which was primarily a result of network carriers restructuring
operations during bankruptcy. Delta reduced operations in Cincinnati, and
Northwest reduced operations in Detroit and Minneapolis. In the Northeast,
scheduled seats decreased by 13 percent during this same period.

More recently, the South experienced reductions in capacity primarily in
communities served by Delta through its Atlanta hub. Service in the South was
also affected by US Airways’ capacity reductions in Charlotte, which it did while
emerging from bankruptcy in September 2005. The close of Independence Air in
January 2006 further eliminated capacity in the region.

Capacity Reductions Were Most Prominent in Small Communities

The capacity reductions have primarily affected service in the smallest (non-hub)
communities, where scheduled flights for July 2006 are 26 percent, and scheduled
seats are 18 percent, below July 2000 levels. About 40 percent of the reduction in
scheduled seats since 2000 occurred in the last year alone. Particularly hard hit
are very small communities in the Midwest and Northeast, where scheduled seats
in July 2006 are down 33 percent from July 2000 (see Figure III).
                                                                                          5


                                Figure III. Departure by Airport Type
                                 Percent Change in Scheduled Domestic Flights;
                                 July 2001 through July 2006 (Base Year 2000)


                          5%

                          0%
                                  2001     2002      2003     2004      2005       2006
                         -5%
            Percentage




                         -10%

                         -15%

                         -20%

                         -25%

                         -30%
                                          Non-hub     Small    Medium      Large



Aviation Delay Rates Have Not Declined Despite a Reduction in
Flights
The percent of flights delayed at the 55 airports tracked by the Federal Aviation
Administration remained relatively unchanged at about 23 percent between the
first 5 months of 2000 and the first 5 months of 2006, despite a 5 percent reduction
in traffic. The absolute number of delays has declined by 7 percent since 2000.
The average delay in the first 5 months of 2000 was 50 minutes; the current
average delay is 53 minutes.

There are some noteworthy airports that have seen significant changes in their
congestion status—both increasing and decreasing. The greatest reductions were
at airports where major carriers either de-hubbed or significantly reduced their
service between 2000 and 2006. The increased delays reflect a growing number of
flights in Salt Lake City and Houston (Bush). The delays in Houston were
exacerbated by runway construction work. In Memphis, the increase in the
number of delays was due to a decline in on-time performance by Federal
Express’ operations (see Table 1).
                                                                  6

Table I. Changes in Traffic and Delays; and Current Delay Rates
                       at Select Airports,
                Jan-May 2000 v. Jan-May 2006

                          Change in    Change in   Delay Rate
             Airport       Arrivals     Delays     Jan-May 06
        Reduced Delays
      Cincinnati            -23%         -52%         14%
      Saint Louis           -58%         -53%         18%
      Pittsburgh            -40%         -53%         19%
       Increased Delays
      Salt Lake City        20%          25%          20%
      Houston (Bush)        30%          56%          23%
      Memphis               12%          59%          24%


                                   #
                                                                                                                   7

                      TABLE OF CONTENTS

AIR SERVICE DEMAND AND CAPACITY
  Figure 1: Domestic Passenger Enplanements 2000 - 2005....................................9
  Figure 2: Domestic Revenue Passenger-Miles and Available Seat-Miles.............9
  Figure 3: Domestic and International Revenue Passenger-Miles ..........................9
  Figure 4: International Passenger Traffic ............................................................10
  Figure 5: Nine Major Airlines Reported Arrivals................................................10
  Figure 6: Regional Differences in Capacity at All Airports ................................10
  Figure 7: Change in Capacity at Large Airports..................................................11
  Figure 8: Length of Domestic Flights..................................................................12
  Figure 9: Short Haul Flights: Seats by Type of Airline ......................................12
  Figure 10: Domestic and International Air Cargo Traffic ....................................12
  Figure 11: Domestic Market Share by Seller Carrier Group ................................13
  Figure 12: Market Share of Low-Cost Carrier Service.........................................13
  Figure 13: Share of Low-Cost Carrier Service Growth ........................................13
  Figure 14: Market Share by Aircraft Type ...........................................................13
AVIATION SYSTEM PERFORMANCE
  Figure 15: Actual Flight Operations. ....................................................................14
  Figure 16: Number of Flights With Delayed Arrivals ..........................................14
  Figure 17: Cancellations .......................................................................................14
  Figure 18: Percent of Flights Arriving Late..........................................................15
  Figure 19: Length of Arrival Delays.....................................................................15
  Figure 20: Most Significant Changes in Arrival Delays by Airport.....................15
AIRLINE FINANCES
  Figure 21: Revenues versus Expenses ..................................................................16
  Figure 22: Selected Network and Low-Cost Carriers Operating
             Profit or Loss........................................................................................16
  Figure 23: Accumulated Net Losses and Gains....................................................17
  Figure 24: Domestic Cost Per Available Seat-Mile (CASM)...............................17
                                                                                                              8

  Figure 25: Domestic Yield for Seven Major Airlines...........................................18
  Figure 26: Average; Short-, Medium-, and Long-Haul Fares for
             Fourth Quarters 2000-2005..................................................................18
  Figure 27: Use of Business Fares..........................................................................18
  Figure 28: Passenger Load Factors .......................................................................19
  Figure 29: Actual Airline Load Factors ................................................................19
  Figure 30: Debt-to-Investment Ratio ...................................................................19
  Figure 31: Debt-to-Investment Ratio by Airline...................................................19
  Figure 32: Cost Per Gallon Domestic Jet Fuel......................................................20
  Figure 33: Airport and Airway Trust Fund...........................................................20
AIR SERVICE AT SMALL AIRPORTS
  Figure 34: Changes in Service by Airport Size ....................................................21
  Figure 35: Access to Large Airports.....................................................................21
  Figure 36: Regional Differences in Service at Non-Hubs ....................................21
  Figure 37: Essential Air Service ...........................................................................22
                                                                                                                                                                                                 9
EXHIBIT A. SUMMARY OF AIRLINE INDUSTRY METRICS

I.       Air Service Demand and Capacity                                           Figure 1: Passenger Enplanements 2000-2005
                                                                                   Scheduled Service System-Wide (DOT Data)


     AIR TRAFFIC DEMAND.                 System passenger                                                        750                                                                     738.6

     enplanements on U.S airlines in 2005 totaled                                                                            698.9                                           703.7

     738.6 million, which was 5 percent greater than 2004                                                        700
     and 5.7 percent greater than 2000. 5 [Figure 1]




                                                                                       Millions of Passengers
                                                                                                                                         652.9                  647.5
                                                                                                                                                   641.0
                                                                                                                 650

     DOMESTIC TRAFFIC AND CAPACITY. Between the
     first quarter of 2000 and the first quarter of 2006,                                                        600

     passenger traffic, as measured by Revenue Passenger-
     Miles (RPMs) grew 15 percent while capacity, as                                                             550

     measured by Available Seat-Miles (ASMs) remained
     comparatively flat (up only 0.6 percent). As traffic                                                        500
                                                                                                                             2000        2001      2002            2003        2004       2005
     increases faster than capacity, the percent of available
     seats sold, or load factor, increases. This indicates that
     capacity is more closely matching demand. The load                            Figure 2: Domestic Revenue Passenger-Miles and
     factor in the first quarter of 2000 was 67 percent; in                        Available Seat-Miles 2000-2006 (BTS Data)
     the first quarter of 2006, the load factor increased                                               220

     10 percentage points to 77 percent. Compared to the                                                200
                                                                                                                                                        Capacity
     first quarter of 2005, RPMs increased approximately
                                                                                                        180                                                                      77% Load Factor
     1.6 percent while ASMs decreased by 2.4 percent.
                                                                                   Billions




                                                                                                                      67% Load Factor                                                 1Q06
     [Figure 2]                                                                                         160
                                                                                                                           1Q00



                                                TRAFFIC. 6                                              140                                              Traffic
     DOMESTIC       AND      INTERNATIONAL
     Domestic RPMs in the 12 months ending March 2006                                                   120

     were 598 billion, 12 percent higher than in the                                                    100
     12 months ending March 2001. Over the same period,                                                          1Q00        4Q00      3Q01      2Q02      1Q03       4Q03     3Q04      2Q05         1Q06

     the trend of international passenger traffic was flat,                                                                      RPM             ASM               RPM trend           ASM trend
     with RPMs for the 12 months ended March 2006 at
     443 billion. In the 12 months ending March 2006,
     both domestic and international RPMs exceeded                                 Figure 3: Domestic and International Revenue
     RPMs in the prior 12-month period. Domestic RPMs                              Passenger-Miles 2000-2006 (BTS Data)
     were up 3.3 percent and international RPMs up                                                              170

     3.9 percent. [Figure 3]
                                                                                                                145
                                                                                                                                                        Dom es tic
     INTERNATIONAL PASSENGER GROWTH BY REGION.
                                                                                     Billions




     Atlantic traffic, the largest of the United States’                                                        120
     international air service markets, averages 210 billion
                                                                                                                                                        Inte rnational
     RPMs annually. Traffic in this region declined
                                                                                                                 95
     slightly (2.9 percent) between the year ended March

     5                                                                                                           70
         We use 2000 as the base year in many or our metrics due                                                      1Q00     4Q00      3Q01    2Q02       1Q03      4Q03     3Q04      2Q05     1Q06
          to its high level of flight delays and traffic congestion.                                                                  Domestic actual                          International actual
     6
         International includes all international operations of                                                                       Domestic trend                           International trend
         U.S. airlines and all service to and from the U.S. by foreign airlines.


     Exhibit A. Summary of Airline Industry Metrics
                                                                                                                                                                              10
2001 and the year ended March 2006. Traffic in the        Figure 4: International Passenger Traffic
Atlantic region fluctuates regularly due to highly        Quarterly Revenue Passenger-Miles 1Qtr 2000-1Qtr 2006 (BTS Data)

seasonal vacation traffic.     The Pacific region                     80
                                                                                                          September 11th
(average 128 billion annual RPMs), while remaining                    70                                      Impact
relatively flat over this period, experienced a                       60
substantial 30 percent downturn in mid-2003 when




                                                          Billions
                                                                      50
the Severe Acute Respiratory Syndrome epidemic                        40                                                                  SARS Epidemic
stifled travel to and from the region. Passenger                      30
traffic in the Latin American region increased                        20
9.4 percent from 71 billion RPMs in the year ended
                                                                      10
March 2001 to 77 billion RPMs in the year ended
                                                                            0
March 2006. Traffic in all three regions grew in the                            1Q00    4Q00         3Q01           2Q02        1Q03        4Q03        3Q04        2Q05       1Q06
last year—Atlantic up 3.2 percent, Latin American
                                                                                                              Latin             Atlantic            Pacific
up 4.6 percent and Pacific up 4.8 percent.
[Figure 4]

FLIGHT ARRIVALS.          Between May 2000 and            Figure 5: Nine Major Airlines Reported Arrivals
                                                          Percent Change in Actual Arrivals by Airline May 2006 vs. May 2000
May 2006, three airlines reported increased               (BTS Data)
domestic flight arrivals at the 55 large airports
tracked by FAA; Southwest Airlines (21 percent),                                25%
                                                                                        21%
                                                                                                    14%
Alaska Airlines (14 percent), and America West
                                                                                10%                            1%
(1 percent). Six airlines reported declines in arrivals
                                                               Percentage


ranging from 16 percent (Northwest) to 52 percent                                -5%

(US Airways). US Airways significantly reduced                                  -20%                                       -16%      -17%
flights into the Pittsburgh and Charlotte airports.                             -35%                                                           -28%     -28%
[Figure 5]                                                                                                                                                      -39%
                                                                                -50%
                                                                                                                                                                              -52%
REGIONAL DIFFERENCES IN DOMESTIC SERVICE.                                       -65%

Scheduled seats nationwide totaled 78.3 million in
                                                                                                                                     l




                                                                                                                                                                l ta
                                                                                                                                               d
                                                                                                  a




                                                                                                                                     ta
                                                                                                                t




                                                                                                                                                        n
                                                                                                                           st
                                                                                        st




                                                                                                              es




                                                                                                                                                                           s
                                                                                                                                            i te
                                                                                               sk




                                                                                                                                                      i ca




                                                                                                                                                                         ay
                                                                                                                                  en




                                                                                                                                                               De
                                                                                       we




                                                                                                                      we
                                                                                                          W




                                                                                                                                          Un
                                                                                                a




                                                                                                                                                                         rw
                                                                                                                                                    er
                                                                                                                                in
                                                                                             Al
                                                                                   th




                                                                                                                    r th




July 2006, 9 percent fewer than July 2000 levels.
                                                                                                       i ca




                                                                                                                                nt




                                                                                                                                                   Am




                                                                                                                                                                       Ai
                                                                                    u




                                                                                                                No


                                                                                                                            Co
                                                                                 So




                                                                                                     er




                                                                                                                                                                    US
                                                                                                Am




Seats declined in the Midwest (-22 percent),
Northeast (-13 percent), South (-6 percent), and
West (-2 percent). On an absolute basis, the greatest     Figure 6: Regional Differences in Capacity at All
seat loss was in the Midwest region, where monthly        Airports
                                                          Percent Change in Available Seats at All Airports July 2006 vs. July
available seats declined from 18.6 million in July        2000 (FAA Data)
2000 to 14.6 million in July 2006. This loss
                                                                                                                                                Midwest
represented about half of the Nation’s reduction. A                               West                                                           -22%
large portion of the past year’s decline in the                                   -2%

Midwest reflects Delta’s reduced hub and spoke
                                                                                                                                                                 Northeast
operations in Cincinnati and Northwest’s reduced                                                                                                                   -13%
operations in Detroit and Minneapolis, both of
which followed their bankruptcy filings. Seats in the
South declined in the past year as Delta reduced                                                                                                             South
                                                                                                                                                              -6%
operations in Atlanta and US Airways eliminated
some service in Charlotte. Independence Air, which
had a hub at Washington-Dulles, ceased operations                                                         National Average -9%
and also greatly affected this region. [Figure 6]



Exhibit A. Summary of Airline Industry Metrics
                                                                                                                        11
CAPACITY AT LARGE AIRPORTS. Capacity, as
measured by scheduled seats and flights, declined       Figure 7: Change in Capacity at Large Airports
                                                        Percent Change in Scheduled Flights and Available Seats at the
at 21 of the 31 largest airports between July 2000      31 Largest Airports July 2006 vs. July 2000 (FAA Data)
and July 2006. Airports losing seats include
St. Louis (-58 percent), Pittsburgh (-57 percent),           -60% -40% -20%      0%      20%   40%   60%

and Cincinnati (-38 percent). Airports gaining                                                           Kennedy
seats include New York-Kennedy (33 percent),
                                                                                                         Fort Lauderdale
Fort Lauderdale (29 percent), and Las Vegas
(24 percent). The increase at these airports                                                             Las Vegas
reflects significant growth in service by low-cost                                                       Orlando
carriers.
                                                                                                         San Diego

Differences between the change in flights and                                                            Denver
seats at an individual airport are due to the change                                                     Houston
in mix of aircraft sizes. For example, at Houston
                                                                                                         Philadelphia
flights grew at a greater rate (28 percent) than
seats (7 percent), indicating that relatively smaller                                                    Baltimore

regional jets are used in a larger proportion of                                                         Tampa
flights in July 2006 (52 percent) compared to                                                            Phoenix
July 2000 (15 percent). [Figure 7]
                                                                                                         Salt Lake City

                                                                                                         Charlotte

                                                                                                         Reagan National

                                                                                                         Atlanta

                                                                                                         Honolulu

                                                                                                         Seattle

                                                                                                         LaGuardia

                                                                                                         Detroit

                                                                                                         Chicago O'Hare

                                                                                                         Minneapolis

                                                                                                         Dulles

                                                                                                         Newark

                                                                                                         Dallas-Ft. Worth

                                                                                                         Miami

                                                                                                         Boston

                                                                                                         Los Angeles

                                                                                                         San Francisco

                                                                                                         Cincinnati

                                                                                                         Pittsburgh

                                                                                                         St. Louis



                                                                     Scheduled Flights           Available Seats




Exhibit A. Summary of Airline Industry Metrics
                                                                                                                                                            12
LOSS OF SHORT-HAUL AIR SERVICE. In total,               Figure 8: Length of Domestic Flights
scheduled domestic flights in July 2006 were down       Percent Change in Scheduled Flights by Length of
                                                        Flight July 2006 vs. July 2000 (FAA Data)
8 percent from July 2000. The largest decline was in
the shortest flights: scheduled domestic flights with                              30%
                                                                                                                                    20%
stage lengths less than 250 miles were down                                        20%                                                               14%
32 percent and flights between 250 and 499 miles
                                                                                   10%




                                                                   Percentage
were down 9 percent. Flights of 500 to 999 miles in
                                                                                       0%
length increased 20 percent and flights of
1,000 miles or more increased 14 percent.                                          -10%
                                                                                                                  -9%
                                                                                   -20%
Sharp reductions were made by network carriers                                     -30%
(-3.3 million seats) and regional and other smaller                                               -32%
                                                                                   -40%
airlines (-2.3 million seats). Low-cost carriers,                                             0 to 249       250 to 499           500 to 999         1,000+
which generally have not provided short-haul
                                                                                                                         Miles
service, changed minimally during this period
(-200,000 seats). [Figures 8 and 9]
                                                        Figure 9: Short-Haul Flights: Seats by Type of
DOMESTIC AND INTERNATIONAL AIR CARGO.                   Airline Scheduled Available Seats on Flights Less than 250 Miles
                                                        July 2006 vs. July 2000 (FAA Data)
Revenue ton-miles (RTMs) for domestic air cargo
                                                                                                                   9.6
were 21.1 billion for the 12-month period ending                                  10

March 2006, nearly unchanged from the same period                                  9
                                                                                   8                                        7.3
the prior year. Growth in the domestic air cargo
                                                          Millions of Seats

                                                                                   7        6.1
industry has lagged behind that of international air                               6
cargo, as rising air cargo charges have made surface                               5
modes a competitive alternative. Compared to the                                   4
                                                                                                     2.8
12-month period ending March 2005, international                                   3                                                           2.3   2.1

air cargo RTMs in the 12 months ending March                                       2
                                                                                   1
2006 increased from 37.2 billion to 37.6 billion, a
                                                                                   0
growth of 1.3 percent.                                                                      Ne tw ork             Re gionals and               Low -Cos t
                                                                                                                      Othe rs
                                                                                                  July 2000 Seats                    July 2006 Seats
Over the longer term, i.e., compared to the
12 months ended March 2001, international air
cargo grew 15 percent. Much of this growth was in       Figure 10: Domestic and International Air Cargo
the Pacific and Latin American markets. Pacific         Traffic Quarterly Revenue Ton-Miles 1Qtr 2003-1Qtr 2006
                                                        (BTS Data)
RTMs increased 26.4 percent to 18.4 billion RTMs,
                                                                      12
Latin American RTMs increased 15 percent to
4.3 billion RTMs, and Trans-Atlantic RPMs                             10
increased 3.5 percent to 15 billion RTMs.
                                                                              8
[Figure 10]
                                                        Billions




                                                                              6

LOW-COST CARRIERS GAIN MARKET SHARE.                                          4
Low-cost carriers have continued to expand their
share of domestic capacity (as measured in                                    2

scheduled seats). Between July 2000 and July                                  0
2006, low-cost carriers increased their share of                                  1Q03        3Q03         1Q04          3Q04        1Q05         3Q05        1Q06

all scheduled seats from 19 percent to 28 percent.                                                         Domestic        International

Network carriers (including their regional airline


Exhibit A. Summary of Airline Industry Metrics
                                                                                                                                                                          13
affiliates) reduced their share from 73 percent to                             Figure 11: Domestic Market Share by Seller Carrier
67 percent, and other carriers (for example, Aloha                             Group Airline Market Share of Scheduled Available Seats
Airlines, Hawaiian Airlines, Midwest Airlines, and                             July 2000, July 2005, and July 2006 (FAA Data)

intra-Alaska carriers) reduced their share from                                           75%
                                                                                                      73%
                                                                                                                               70%                      67%
8 percent to 4 percent. [Figure 11]
                                                                                          60%

MARKET SHARE AND GROWTH OF LOW-COST




                                                                             Percentage
                                                                                          45%
CARRIERS.        Southwest Airlines represents
57 percent of the total number of seats scheduled                                         30%                                        25%
                                                                                                                                                                28%

by the low-cost carriers and 42 percent of the total                                                        19%

growth in low-cost service over the last 8 years.                                         15%                     8%
                                                                                                                                           5%                         4%
Together, low-cost carriers increased their
                                                                                          0%
capacity nearly 75 percent between 1998 and                                                             July 2000                July 2005                July 2006
2006. [Figures 12 and 13]                                                                                   Netw ork                 Low -Cost                   Others




 Figure 12: Market Share of Low-Cost Carrier
                                                                  Figure 13: Share of Low-Cost Carrier Service
 Service Airline Share of Service by Scheduled Available Seats,
 July 2006 (FAA Data)
                                                                  Growth Airline Share of Growth by Scheduled Available Seats,
                                                                  July 1998 to July 2006 (FAA Data)
                  Sun Country
                      1%                                                                  Sun Country                                  America
                                          America                                             1%                                       West 7%
     Spirit 2%                            West 13%                                                                                                              Southwest
                                                                                                Spirit 3%
                                                                                                                                                                  42%
 Frontier 5%
                                                                  Frontier 10%

 JetBlue 9%
                                                                  JetBlue 20%
   ATA 1%
                                                     Southwest
                    AirTran 11%                         57%
                                                                                                                       AirTran 16%




                                                                  Figure 14: Market Share by Aircraft Type
MARKET SHARE BY AIRCRAFT TYPE. In                                 Percent Share of Scheduled Flights by Type of Aircraft
                                                                  July 2000, 2005, and 2006 (FAA Data)
July 2000, 10 percent of domestic scheduled
                                                                            60%                             56%
flights were on regional jets. In July 2006,
                                                                                                                                    49%                      49%
regional jets account for one-third of all                                  50%

domestic scheduled flights.       Many carriers
                                                                            40%
substituted regional jets for large jets to better                                              34%
                                                                                                                              32%                      33%
                                                                  Percent




meet demand. Use of large jets declined from                                30%

56 percent of scheduled flights in July 2000 to                                                                         19%                      18%
                                                                            20%
49 percent for each of the last 2 years. Since                                                        10%
July 2000, non-jets (turbo-prop and piston                                  10%

engine aircraft) declined from 34 percent to                                0%
18 percent of scheduled flights. [Figure 14]                                                          Jul-00                  Jul-05                   Jul-06
                                                                                                   Non-Jet             Regional Jets             Large Jets




Exhibit A. Summary of Airline Industry Metrics
                                                                                                                                                                                                                      14
II. Aviation System Performance
  FLIGHT OPERATIONS. Following a decline that
  started in 2000, the number of domestic aircraft                                                         Figure 15: Actual Flight Operations
                                                                                                           Percent Change from 2000 in Air Route Traffic Control Center
  operations handled by FAA’s Air Route Traffic                                                            Operations (FAA Data)
  Control Centers began to recover and exceeded                                                                                   10%
  2000 levels in most of 2004 and 2005. However,                                                                                                                                                      Jun-06 .03%
  beginning in mid-2005 and lasting into 2006,                                                                                          5%

  flight operations declined as the network carriers




                                                                                                           Percentage
                                                                                                                                        0%
  reduced capacity. In the first half of 2006,
  domestic flight operations were on par with                                                                                       -5%
  operations in the first half of 2000. [Figure 15]
                                                                                                                             -10%

                                                                                                                                                   Sept-01 -16%
                                                                                                                             -15%


                                                                                                                             -20%




                                                                                                                               J u 06
                                                                                                                               J u 02




                                                                                                                               J u 03




                                                                                                                               J u 04




                                                                                                                               J u 05
                                                                                                                               O 1

                                                                                                                               Fe 1




                                                                                                                                     06
                                                                                                                               O 2




                                                                                                                               O 3

                                                                                                                               Fe 3


                                                                                                                               O 4




                                                                                                                               O 5
                                                                                                                                     05
                                                                                                                               Fe 2




                                                                                                                               Fe 4
                                                                                                                                    -0




                                                                                                                                   -0
                                                                                                                                     0




                                                                                                                                     0
                                                                                                                                     0


                                                                                                                                     0




                                                                                                                                     0
                                                                                                                                     0


                                                                                                                                     0


                                                                                                                                    -
                                                                                                                                  b-




                                                                                                                                  b-




                                                                                                                                  b-




                                                                                                                                  b-
                                                                                                                                  n-




                                                                                                                                  n-




                                                                                                                                  n-
                                                                                                                                  n-




                                                                                                                                  n-




                                                                                                                                  n-
                                                                                                                                 ct-




                                                                                                                                 ct-




                                                                                                                                 ct-
                                                                                                                                 eb
                                                                                                                                 ct




                                                                                                                                 ct
                                                                                                                               Ju




                                                                                                                               F
  FLIGHT DELAYS AND CANCELLATIONS. The number of delayed flights for the first 5 months of 2006
  (726,319) was 6 percent below the same period in 2005 (773,260) and 7 percent below 2000 (781,068).
  In April and May of 2006, delayed flights exceeded 2005 levels by a wide margin; this is a function of
  the unusually low numbers of delays in 2005 (compared to similar months since 2000). Flight
  cancellations for the first 5 months of 2006 (52,297) were 23 percent lower than the same period in
  2005 (68,002) and 23 percent lower than in 2000 (67,627). [Figures 16 and 17]


   Figure 16: Number of Flights With Delayed Arrivals                                                              Figure 17: Cancellations
   All airlines, 55 major airports (FAA Data)                                                                      All airlines, 55 major airports (FAA Data)
                                            1st 5mo 06 vs 00                                                                            45,000
                      250,000
                                                  -7%
                                                                                                                                        40,000
                      200,000                                                                                                           35,000
   Delayed Arrivals




                                                                                                                                        30,000
                                                                                                                        Cancellations




                      150,000                                                                                                                                                   May 06 v 00
                                                                                                                                        25,000           1Q06 v 00
                                                                                                                                                                                   -40%
                                                                                                                                                           -17%
                                                                                                                                        20,000
                      100,000
                                                                                                                                        15,000

                       50,000                                                                                                           10,000

                                                                                                                                         5,000

                           0                                                                                                                 0
                                                         May




                                                                                               Nov




                                                                                                                                                                          May
                                            Mar

                                                   Apr




                                                                            Aug



                                                                                        Oct




                                                                                                                                                             Mar

                                                                                                                                                                    Apr
                                                                                                     Dec




                                                                                                                                                                                                                Nov
                                                                      Jul
                                Jan

                                      Feb




                                                               Jun




                                                                                  Sep




                                                                                                                                                                                              Aug



                                                                                                                                                                                                          Oct
                                                                                                                                                                                       Jul
                                                                                                                                                 Jan

                                                                                                                                                       Feb




                                                                                                                                                                                 Jun




                                                                                                                                                                                                                       Dec
                                                                                                                                                                                                    Sep




                                            2000                     2005                     2006                                                           2000                      2005                     2006




  Exhibit A. Summary of Airline Industry Metrics
                                                                                                                                                                                                                                                   15
OTHER INDICATORS OF DELAYS. While the number of delayed flights was down at the 55 airports
tracked by FAA, the percent of flights delayed during the first 5 months of 2006 (23 percent) was
relatively unchanged from the same periods in 2000 and 2005. This was despite the 2006 flight
operations at those airports declining 5 percent from 2000 and 9 percent from 2005. The average delay
for the first five months of 2006 was 53 minutes—compared to 50 minutes in 2000 and 51 minutes in
2005. To date, 2006 marks the first year in which the monthly average length of delay has exceeded
50 minutes for each month. [Figures 18 and 19]


 Figure 18: Percent of Flights Arriving Late                                                       Figure 19: Length of Arrival Delays
 All airlines, 55 major airports (FAA Data)                                                        All airlines, 55 major airports (FAA Data)

              40%                                                                                             75
                                      1st 5mo 06                      Dec-00                                                                                    May-06 55 Minutes
                                         23%                           36%                                                                                      May-05 49 Minutes
                                                                                                              60
              30%
 Percentage




                                                                                                   Minutes
                                                                                                              45
              20%

                                                                                                              30

              10%
                                                                                                              15


              0%                                                                                                     0
                                                          Jul
                          Feb




                                                   Jun




                                                                               Oct
                                Mar




                                                                                       Nov

                                                                                             Dec
                    Jan




                                                                       Sep
                                             May
                                       Apr




                                                                Aug




                                                                                                                                                                                     Jul
                                                                                                                           Jan

                                                                                                                                  Feb




                                                                                                                                                                                                                        Oct
                                                                                                                                            Mar




                                                                                                                                                                May




                                                                                                                                                                                                                                Nov

                                                                                                                                                                                                                                             Dec
                                                                                                                                                                              Jun




                                                                                                                                                                                                            Sep
                                                                                                                                                                                                   Aug
                                                                                                                                                       Apr
                                2000                     2005                        2006                                                    2000                                   2005                                    2006




DELAYS AT SELECT AIRPORTS. Systemwide
arrival delays are down 7 percent compared to                                                      Figure 20: Most Significant Changes in Arrival
2000 levels; however, changes have not occurred                                                    Delays by Airport Percent Change in Arrival Delays for
                                                                                                   Year-to-Date May 2006 vs. May 2000 (FAA Data)
uniformly among airports. Memphis, Houston
(Bush), and Salt Lake City had the greatest                                                                              70%          59%               56%
increases in delays. These delays can be                                                                                 50%
attributed, at least partially, to the deteriorating                                                                     30%
                                                                                                                                                                          25%

on-time performance of FedEx at Memphis,
                                                                                                        Percentage




                                                                                                                         10%
runway reconstruction at Houston, and increased
flights in Salt Lake City. The airports with the                                                                         -10%

greatest decrease in delays—Cincinnati,                                                                                  -30%

Pittsburgh, and St. Louis—were airports where                                                                            -50%
the dominant hub airlines reduced operations                                                                             -70%
                                                                                                                                                                                              -52%                    -53%             -53%

while in or following bankruptcy. [Figure 20]                                                                                         his              to n                   ity                 a ti                rgh              uis
                                                                                                                                 mp               us                     eC               cin
                                                                                                                                                                                              n                   u               Lo
                                                                                                                            Me               Ho                     ak                                        tsb             St.
                                                                                                                                                             lt L                   Cin                  Pi t
                                                                                                                                                          Sa




Exhibit A. Summary of Airline Industry Metrics
                                                                                                                                                                 16


III. Airline Finances
  AIRLINE REVENUES AND EXPENSES. In the                                                        Figure 22: Selected Network and Low Cost
  first quarter of 2006, the major passenger                                                   Carriers Operating Profit or Loss
  airlines recorded $26.3 billion in revenue and                                               System Operations for Quarter Ending 3/31/06 (DOT Data)
  $26.7 billion in expenses. This resulted in an
                                                                                                                          Millions
  operating loss of about $0.5 billion compared to
                                                                                                 -$500 -$400 -$300 -$200 -$100      $0   $100 $200 $300
  an operating loss of $1.5 billion in the first
  quarter of 2005. Rising fuel prices undermined                                                                                               $98    Southwest
  the airlines’ efforts to reduce their operating
  expenses. During the first quarter of 2006, fuel                                                                                         $83        America West
  prices hovered around $2 a gallon, compared to
  an average of $1.64 in 2005 and $1.13 in 2004.                                                                                         $52          American
  [Figure 21]
                                                                                                                                         $43          US Airways
      Figure 21: Revenues vs. Expenses
      Major Passenger Carriers Operating Revenues and Operating
      Expenses 1Qtr 2001 through 1Qtr 2006 (DOT Data)
                                                                                                                              -$3                     Continental
                                                                1Q06
                                                                                    Expenses
                   $30
                                                                                      $26.7                                   -$5                     AirTran

                   $25                                                                1Q06
                                                                                                                              -$7                     Northwest
                                                                                    Revenues
      $ Billions




                                                                                      $26.3
                   $20
                                                                                                                              -$9                     Frontier

                   $15
                                                                                                                             -$10                     Spirit

                   $10
                                                                                                                            -$25                      JetBlue
                          01
                    01




                                02


                                        02


                                               03


                                                     03


                                                           04


                                                                 04


                                                                          05


                                                                                 05


                                                                                          06
                   1Q




                               1Q


                                      3Q


                                             1Q


                                                    3Q


                                                          1Q


                                                                3Q


                                                                        1Q


                                                                               3Q


                                                                                       1Q
                         3Q




                                    Operating Revenues               Operating Expenses                           -$148                               Alaska


                                                                                                                 -$168                                United


                                                                                               -$481                                                  Delta



  AIRLINE OPERATING PROFITS AND LOSSES. 7
  The first quarter of 2006 operating results for 13 select network and low-cost carriers illustrate the
  continued financial troubles of the airline industry. Of the total first quarter loss, the select network
  carriers as a group reported $710 million in losses. Only American ($52 million) and US Airways
  ($43 million) generated profits, while Delta (-$481 million), United (-$168 million), and
  Alaska (-$148 million) generated losses. The low-cost carriers posted a $133 million operating profit,
  mostly on the strength of Southwest ($98 million) and America West ($83 million), because the
  balance of the low-cost carriers reported operating losses. [Figure 22]

  7
           Operating profit or loss is the difference between operating revenues and operating expenses. Net profit or loss is the
           result of operating profit or loss plus or minus interest, taxes, dividends, accounting changes, and other extraordinary
           charges (write-offs) or credits.


  Exhibit A. Summary of Airline Industry Metrics
                                                                                                                                          17

ACCUMULATED NET LOSSES AND                     Figure 23: Accumulated Net Losses and Gains
PROFITS. A combination of weak fares,          1Qtr 2001 Cumulative Through 1Qtr 2006 (DOT Data)
soaring fuel costs, and asset write-offs              $0
under bankruptcy have combined to                    -$5                                             Low -Cost Carriers
produce a 5-plus year string of net losses                                                          -$392 million (1Q06)
                                                    -$10
for the network carriers. Between the
                                                    -$15
first quarter of 2001 and the fourth
                                                    -$20
quarter of 2005, network carriers




                                                       $ Billions
                                                    -$25
generated $58 billion in net losses.
                                                    -$30
During the first quarter of 2006, carriers
                                                    -$35
wrote off more than $18 billion in                                                         Netw ork Carriers
                                                    -$40                                   -$38 billion (1Q06)
pension liabilities, which lessened the
                                                    -$45
cumulative total losses to $38 billion.                                   Netw ork Carriers -$58 billion (4Q05)
                                                    -$50
Over the 5-year period, four airlines in
                                                    -$55
bankruptcy accounted for 76 percent of                          YE01     YE02       YE03              YE04          YE05
                                                    -$60
the network carriers’ combined losses,                          Y NetworkYCarriers      Y Low-CostYCarriers           Y
with      Delta    leading     the     way
($12.5 billion), followed by United ($9.2 billion), Northwest ($4.8 billion), and US Airways
($2.6 billion). Between the first quarter of 2001 and the first quarter of 2006, the select low-cost
carriers accumulated $392 million in net losses, which reflect the combined results of several profitable
carriers and others that experienced losses, some of which are related to bankruptcy filings over the last
5 years. [Figure 23]

COST PER AVAILABLE SEAT-MILE
(CASM). Between 2001 and late 2004,                           Figure 24: Cost Per Available Seat Mile (CASM)
                                                              1Qtr 2001 through 1Qtr 2006 (DOT Domestic Quarterly Data)
network carriers achieved some success in
lowering their unit costs. However, rising                                  14
fuel costs have offset these efforts and
                                                                            12
started pushing the CASM upward.
Between the first quarter of 2001 and the                                   10
                                                                                                                                 1Q06 12.5¢
                                                                                      1Q01 11.9¢
first quarter of 2006, network carriers’
CASM rose 5 percent, from 11.9 cents to                                     8
                                                                    Cents




12.5 cents. CASM for low-cost carriers                                                                                            1Q06 8.7¢
                                                                            6          1Q01 8¢
essentially remained steady between 2001
and late 2004 at about 8 cents. Low-cost                                    4
carriers were not exempt from rising fuel
                                                                            2
expense, which pushed their CASM to
8.7 cents for the first quarter of 2006, up                                 0
9 percent from the first quarter of 2001.                                        1Q01 3Q01 1Q02 3Q02 1Q03 3Q03 1Q04 3Q04 1Q05 3Q05 1Q06
[Figure 24]                                                                                   Low -cost Carriers   Netw ork Carriers


AIR FARES AND YIELDS. While domestic
yield (passenger revenue per passenger-mile) has improved for the seven major airlines 8 over the past
year, it is still below 2000 levels. The 13.36 cent yield in June 2006 was 8 percent below the

8
    The Air Transport Association publishes monthly yield figures for a group of seven major airlines: Alaska, American,
    Continental, Delta, Northwest, United, and US Airways.


Exhibit A. Summary of Airline Industry Metrics
                                                                                                                                                                                                                            18
14.50 cent yield in 2000. Yields began to improve in                      Figure 25: Domestic Yield for Seven Major Airlines
                                                                          Percent Change in Airline Yield from 2000 (ATA Data)
May 2005 and continued to improve as carriers reduced
capacity, which has allowed them to raise fares. During                                     5%

the first 6 months of 2006, each month’s yield was, on                                      0%

average, 11 percent higher than the corresponding                                          -5%
                                                                                                                                                                                                                 Jun-06
                                                                                                                                                                                                                  -8%




                                                                          Percentage
month in 2005. [Figure 25]
                                                                                           -10%

                                                                                           -15%
SHORT-, MEDIUM-, AND LONG-HAUL FARES.
Domestic air fares in markets of all distances declined in                                 -20%

2000 and early 2001 as the economy began to soften and                                     -25%

security concerns increased after September 11th. Fares                                    -30%




                                                                                                  Jan-01


                                                                                                             Jul-01


                                                                                                                           Jan-02


                                                                                                                                         Jul-02


                                                                                                                                                       Jan-03


                                                                                                                                                                     Jul-03


                                                                                                                                                                                   Jan-04


                                                                                                                                                                                               Jul-04


                                                                                                                                                                                                        Jan-05


                                                                                                                                                                                                                   Jul-05


                                                                                                                                                                                                                              Jan-06
remained relatively constant over the next several years
until 2005, when the airlines began incorporating the
rising cost of fuel in their fares. Reduced capacity also
gave pricing power to the airlines. In the fourth quarter
                                                                          Figure 26: Average Short-, Medium-, and Long-
of 2005, the average short-haul fare (300 miles) 9 of
                                                                          Haul Fares 4Qtr 2000 through 4Qtr 2005
$119 exceeded the average fare in the fourth quarter of                   Fares for 100 mi, 300 mi, and 1500 mi average distances (DOT Data)
2000 by 3 percent. Fares in medium-haul markets
                                                                                           $250
(1,000 miles) averaged $162 for the fourth quarter of
2005, which was 8.5 percent below the average fare of                                      $200            $226
the fourth quarter of 2000. Even with some fuel-related                                                                                                                                                                                $197
                                                                            Average Fare
increases in 2005, the average fare in the long-haul                                       $150            $177
                                                                                                                                                                                                                                       $162
market (1,500 miles) was $197 in the fourth quarter of
                                                                                           $100
2005, 13 percent below the same period in 2000. Fourth                                                     $116                                                                                                                        $119

quarter 2005 fares reflect recent fare increases; short-,                                   $50
medium- and long-haul fares are above fourth quarter
2004 fares by 9 percent, 5 percent, and 8 percent,                                          $0
respectively. [Figure 26]                                                                                  2000                     2001                        2002                        2003            2004                  2005
                                                                                                           Short-Haul Fares                                     Medium-Haul Fares                                Long-Haul Fares


BUSINESS AND LEISURE TRAVEL. The drop in the use
of traditional business fares that began in early 2000                    Figure 27: Use of Business Fares Percent of All
continued through 2005. The percent of passengers                         Passengers Using Business Fares 1Qtr 2000 through 4Qtr 2005
                                                                          (BTS Data)
traveling on first, business, or unrestricted coach tickets
                                                                                           25%
declined from 21 percent in the first quarter of 2000 to
                                                                                                                      21%
10 percent in the fourth quarter of 2005. During this
                                                                                           20%
period, travel on the highest priced tickets declined as                                                                                                                                                14%
business travelers became increasingly unwilling to pay
                                                                          Percentage




                                                                                           15%
a premium for unrestricted fares 10 and airlines made
restricted coach tickets more attractive by changing their                                 10%
fare restrictions (such as Saturday night stay) to regain                                                                                                                                                                   10%
lagging business travel. After several unsuccessful                                         5%

attempts in 2005 to raise fares, in early 2006, the airlines
successfully implemented several fare increases and                                         0%

eliminated some of the discount fares they created to
                                                                                              00

                                                                                                           00

                                                                                                                      01

                                                                                                                                    01

                                                                                                                                                  02

                                                                                                                                                                02

                                                                                                                                                                              03

                                                                                                                                                                                        03

                                                                                                                                                                                                   04

                                                                                                                                                                                                          04

                                                                                                                                                                                                                    05

                                                                                                                                                                                                                              05
                                                                                            1Q

                                                                                                      3Q

                                                                                                                1Q

                                                                                                                            3Q

                                                                                                                                          1Q

                                                                                                                                                       3Q

                                                                                                                                                                     1Q

                                                                                                                                                                                   3Q

                                                                                                                                                                                              1Q

                                                                                                                                                                                                        3Q

                                                                                                                                                                                                                  1Q

                                                                                                                                                                                                                             3Q




stimulate business travel. [Figure 27]

9
    We chose these three mileage blocks as representatives of short-, medium-, and long-haul markets.
10
     Fully refundable fares without advance purchase and minimum stay requirements.


Exhibit A. Summary of Airline Industry Metrics
                                                                                                                                                                                                                                                                                                                               19

AIRLINE LOAD FACTOR. Load factor is the average percent of available seats filled by revenue
passengers. For the fourth quarter of 2005, the load factor for the 14 major passenger airlines 11 was
77 percent, up slightly from the 75 percent load factor in the fourth quarter of 2004. This continued the
generally upward trend in capacity utilization since 2000. The breakeven load factor, or the percentage
of paying passengers needed to cover airline costs, dipped slightly from 88 percent in the fourth quarter
of 2004 to 86 percent in the fourth quarter of 2005. [Figures 28 and 29]

        Figure 28: Passenger Load Factors                                                                                                        Figure 29: Actual Airline Load Factors
        Actual vs. Breakeven Percentages 4Qtr 2000 through                                                                                       Actual Percentages for 4Qtr 2005 (DOT Data)
        4Qtr 2005 (DOT Data)
                                                                                                                                                              100%
                             100%
                                                                                                              4Q05 Breakeven 86%
                                                                                                                                                              80%




                                                                                                                                                 Percentage
                                  80%                                                                                                                         60%
        Percentage




                                                                                                               4Q05 Actual 77%
                                                                                                                                                              40%
                                  60%

                                                                                                                                                              20%
                                  40%
                                                                                                                                                               0%




                                                                                                                                                                                    s




                                                                                                                                                                                                       ta
                                                                                                                                                                                   ka




                                                                                                                                                                                                                                                                                    ue
                                                                                                                                                                                                                                     n




                                                                                                                                                                                                                                                                                                         t
                                                                                                                                                                                                                                                                         d
                                                                                                                                                                                                                                                       l
                                                                                                                                                                                    t




                                                                                                                                                                                                                    t




                                                                                                                                                                                                                                                                                               es
                                                                                                                                                                                                                                                    ta
                                                                                                                                                                                 ay
                                                                                                                                                                                 es




                                                                                                                                                                                                                 es

                                                                                                                                                                                                                                    ica




                                                                                                                                                                                                                                                                    te
                                                                                                                                                                                                    el
                                  20%




                                                                                                                                                                                as




                                                                                                                                                                                                                                                                                l
                                                                                                                                                                                                                                                 en




                                                                                                                                                                                                                                                                             tB
                                                                                                                                                                              rw




                                                                                                                                                                                                                                                                                            w
                                                                                                                                                                                                                 W




                                                                                                                                                                                                                                                                 ni
                                                                                                                                                                  hw




                                                                                                                                                                                                    D




                                                                                                                                                                                                                               er
                                                                                                                                                                             Al




                                                                                                                                                                                                                                                                                          th
                                                                                                                                                                                                                                                           U

                                                                                                                                                                                                                                                                         Je
                                                                                                                                                                                                                                         tin
                                                                                                                                                                                 Ai




                                                                                                                                                                                                          ica

                                                                                                                                                                                                                     Am
                                                                                                                                                               ut




                                                                                                                                                                                                                                                                                        or
                                                                                                                                                                                                                                      on
                                                                           02




                                                                                                                                       05
                                   00


                                             01


                                                       01


                                                                 02




                                                                                     03


                                                                                               03


                                                                                                         04


                                                                                                                   04


                                                                                                                             05




                                                                                                                                                              So


                                                                                                                                                                             S




                                                                                                                                                                                                                                                                                        N
                                                                                                                                                                                                        er
                                                                                                                                                                             U




                                                                                                                                                                                                                                     C
                                  4Q


                                            2Q


                                                      4Q


                                                                2Q




                                                                                2Q


                                                                                          4Q


                                                                                                    2Q


                                                                                                              4Q


                                                                                                                         2Q


                                                                                                                                   4Q




                                                                                                                                                                                                    Am
                                                                      4Q




                                                                Actual                              Breakeven                                                                                                    Actual Load Factors




DEBT TO INVESTMENT RATIO. Between 2002 and 2006, accumulating net losses and bankruptcy-
related asset write-offs wiped out $28 billion or 99 percent of stockholders’ equity in the 16 major
passenger airlines. Because the major airlines’ total debt stayed constant, total investment in the
industry dropped 36 percent to $51 billion, leaving debt as the sole source of financing for many
airlines. The percent of debt to total investment remained relatively constant (in the 80 percent range)
from 2003 through most of 2005. In late 2005, bankruptcy-related charges caused the percentage to
rise to 193 percent in the fourth quarter of 2005. For the first quarter of 2006, the debt-to-investment
ratio for the major airlines stood at 99.3 percent. Only a few airlines (Southwest, Alaska, and
Continental) have fared better than the group as a whole. [Figures 30 and 31]
                     Figure 30: Debt-to-Investment Ratio All Major                                                                                              Figure 31: Debt-to-Investment Ratio by Airline
                     Airlines 1Qtr 2001 through 1Qtr 2006 (DOT Data)                                                                                            Quarter Ending 3/31/06 (DOT data)

                                                                                                                                                                                 300%                                                254%
                                   200%

                                                                                                                                                                                 200%
                                                                                                                                                                                                                 112%                                                    111% 112%
                                   150%                                                                                                                                                                                                               79%                                                             86%
                                                                                                                                                                                 100%               64%
                     Percentage




                                                                                                                                                                Percentage




                                                                                                                                                                                                                                                                                                              Delta




                                                                                                                                                                                        22%
                                                                                                                                                                                  0%
                                                                                                                         1Q06 99%
                                                                                                                                                                                                                                                                                            US Airways
                                                                                                                                                                                                                                                           Continental


                                                                                                                                                                                                                                                                             American




                                                                                                                                                                                                                                                                                                                      United
                                                                                                                                                                                                        Alaska

                                                                                                                                                                                                                     America West


                                                                                                                                                                                                                                          Northwest
                                                                                                                                                                                        Southwest




                                   100%
                                                                                                                                                                             -100%

                                                      1Q01 54%
                                                                                                                                                                             -200%
                                    50%
                                        01

                                                  01

                                                            02

                                                                      02

                                                                                03


                                                                                          03

                                                                                                    04

                                                                                                              04

                                                                                                                        05

                                                                                                                                  05

                                                                                                                                            06




                                                                                                                                                                             -300%                                                                                                                           -266%
                                       1Q

                                                 3Q

                                                           1Q

                                                                     3Q

                                                                           1Q

                                                                                     3Q

                                                                                               1Q

                                                                                                         3Q

                                                                                                                   1Q


                                                                                                                              3Q

                                                                                                                                        1Q




11
     During the fourth quarter of 2005 only 14 passenger airlines met the $1 billion annual revenue criteria to be included in
     the major airline category. Three airlines were added to the group in the first quarter of 2006.



Exhibit A. Summary of Airline Industry Metrics
                                                                                                                                                                                                                            20
FUEL COSTS. Jet fuel prices have climbed steadily since
May 2002. In May 2006, the average price was $2.05,            Figure 32: Cost Per Gallon Domestic Jet Fuel
                                                               (ATA Data)
which is 35 percent higher than the average price in
May 2005 ($1.52) and 193 percent higher than May                                                $2.20
                                                                                                $2.00
2002 ($0.70). Total domestic fuel expense for the




                                                                   Average cost $ per gallon
                                                                                                $1.80
industry increased $1.9 billion in the first 5 months of                                        $1.60
2006 compared to a year earlier despite a 6 percent                                             $1.40                                                                                                                   May-06
                                                                                                                                                                                                                         $2.05
decline in flights. Fuel prices are influenced by a                                             $1.20
                                                                                                $1.00
number of factors including global demand, supply,
                                                                                                $0.80
political events and manufacturing capability. Local                                            $0.60
issues can also affect fuel prices. For example, the                                            $0.40                          May-02
increase in jet fuel costs that began in September 2005                                         $0.20                           $0.70

may be partially attributed to Hurricanes Katrina and                                           $0.00




                                                                                                        Jan-01

                                                                                                                    Jul-01

                                                                                                                              Jan-02

                                                                                                                                        Jul-02

                                                                                                                                                   Jan-03

                                                                                                                                                              Jul-03

                                                                                                                                                                         Jan-04

                                                                                                                                                                                        Jul-04

                                                                                                                                                                                                    Jan-05

                                                                                                                                                                                                                   Jul-05

                                                                                                                                                                                                                               Jan-06
Rita. According to the ATA, 25 percent of normal jet
fuel production was disturbed by the damage these two
storms caused to Gulf coast refineries and pipelines.
[Figure 32]

AIRPORT AND AIRWAY TRUST FUND. The aviation trust              Figure 33: Airport & Airway Trust Fund
                                                               FAA Budget and Funding FY 2001-FY 2006 (FAA Data)
fund derives much of its revenues from a 7.5 percent
                                                                                               16
airline ticket tax. Between fiscal year FY 2001 and                                                                                                 13.6                 13.9                       13.9
                                                                                                                                                                                                                              14.3
                                                                                                                                 13.3
FY 2003, the trust fund revenues declined, as did the                                          14
                                                                                                             11.2
number of passengers and the price of tickets. Traffic                                         12
                                                                                                    10.1
                                                                                                                                                                                                 10.7
                                                                                                                                                                                                                        11.1
                                                                                                                             9.9                                       9.7
and fares picked up in 2004 and 2005. Trust fund                                               10
                                                                                                                                                 9.3
                                                               $ Billions




revenue is not keeping pace with trust fund                                                    8
                                                                                                                 7.3
expenditures, resulting in a decline of its uncommitted                                        6
balance.     In 2001, the uncommitted balance was                                                                                      4.8
                                                                                               4                                                            3.9
$7.3 billion; the current estimate for 2006 is $1.7 billion.                                                                                                                      2.4
                                                                                               2                                                                                                             1.9
[Figure 33]                                                                                                                                                                                                                         1.7

                                                                                               0
                                                                                                           01                   02                 03                    04                        05                       06 est
                                                                                                                             Trust Fund Revenues                                   FAA Budget Request
                                                                                                                             Uncommitted Balance




Exhibit A. Summary of Airline Industry Metrics
                                                                                                                                                                               21

IV. Air Service at Small Airports
  CHANGES IN AIR SERVICE. Following the economic
                                                                            Figure 34: Changes in Service by Airport Size
  downturn in late 2000 and the after-effects of September                  Percent Change in Scheduled Flights and Seats
  11, service (as measured by scheduled flights and seats)                  July 2006 vs. July 2000 (FAA Data)
                                                                                                  Large Hubs Medium Hubs                      Small Hubs              Non Hubs
  declined at airports of all sizes. Service began to return                               0%
  in 2003, and scheduled flights at small-, medium- and                                                                  -4%
                                                                                           -5%     -5%
  large-hub airports continued to increase through 2005.                                                                            -8%       -7%

  The only category of airports where service has not                                  -10%
                                                                                                          -9%




                                                                            Percent
  rebounded is at non-hub airports, which are the Nation’s                                                                                            -13%
                                                                                       -15%
  smallest commercial airports. Scheduled flights at non-                                                                                                                    -18%
  hub airports in July 2006 are down 26 percent from July                              -20%

  2000, and scheduled seats are down by 18 percent.                                    -25%
  After rebounding to within a few percentage points of                                                                                                               -26%

  2000 levels, the airlines began to eliminate capacity in                             -30%                                         Flights            Seats

  2005, enabling them to control some costs and increase
  fares. [Figure 34]
                                                               Figure 35: Access to Large Airports
  ACCESS TO LARGE AIRPORTS. The number of seats                Percent Change in Scheduled Flights and Seats July 2006 vs. July
  scheduled into large hub airports from markets of all        2000 (FAA Data)

  sizes have declined since 2000, although the most                                   5%
                                                                                                                      4%
                                                                                                                                              1%
  significant change was in flights into large hubs from                              0%
  the smallest—or non-hub—airports. Scheduled flights
                                                                                -5%
  into large airports from non-hubs were down
                                                               Percentage




                                                                                                 -5%
                                                                                                                              -6%
                                                                            -10%
  13 percent between July 2000 and July 2006 and seats                                                 -10%                                         -9%

  were down 23 percent. Flights from small and                              -15%                                                                                       -13%

  medium hubs into large hubs increased very slightly                       -20%

  between 2000 and 2006, although the number of seats                       -25%                                                                                -23%

  declined at the same time. This is largely a result of                                   La
                                                                                             rg e                    La
                                                                                                                       rg e
                                                                                                                                            La
                                                                                                                                              rge                   arg
                                                                                                                                                                       e
                                                                                        to                        to                     to                    oL
                                                                                                                                     all                     bt
  airlines attempting to match capacity to demand by                              La
                                                                                    rge
                                                                                                        Me
                                                                                                          di u
                                                                                                              m
                                                                                                                                Sm                    n-   Hu
                                                                                                                                                    No
  using smaller aircraft in smaller markets. [Figure 35]                                                                Flights      Seats



  NON-HUB AIRPORT SERVICE LOSSES BY REGION. In                         Figure 36: Regional Differences in Service at Non-
                                                                       Hubs Percent Change in Available Seats at Non-Hub Airports July
  July 2006, scheduled seats at non-hub airports in the                2006 vs. July 2000 (FAA Data)
  Northeast and Midwest regions were lower by                                                                                                        Midwest
                                                                                            West
  36 percent and 32 percent, respectively, compared to                                      -11%
                                                                                                                                                      -32%

  July 2000. Over the same time, scheduled seats
  declined by 17 percent in the South and 11 percent in                                                                                                                Northeast
                                                                                                                                                                         -36%
  the West. The seat reductions at the non-hub airports
  have accelerated sharply in the last year; out of the
  900,000 monthly seats lost over the last 6 years at non-                                                                                                      South
                                                                                                                                                                -17%
  hub airports, 365,000 (or 40 percent) of the reductions
                                                                                      Note: Excludes U.S.
  occurred in the last year. This is primarily due to                                 Possessions and                                     National Average -21%
  downsizing by Delta and Northwest following their                                   Territories

  2005 bankruptcy filings. [Figure 36]




  Exhibit A. Summary of Airline Industry Metrics
                                                                                                                                            22

ESSENTIAL AIR SERVICE. Since 2001, Essential      Figure 37: Essential Air Service
                                                  Funding and Subsidized Communities FY 2001 - FY 2007
Air Service funding has remained steady while     (DOT Data)
the number of communities supported has                            $140                                             180
increased. Fiscal Year 2006 appropriations for                     $120
                                                                                                                    160
this service totaled $109 million to support                                                              ?
                                                                                                                    140




                                                                                                                          EAS Communities
                                                                   $100




                                                  Appropriations
153 communities.       The Administration’s                                                                         120




                                                    (Millions)
                                                                   $80                                              100
FY 2007 budget requests $50 million, while the
                                                                   $60                                              80
FY 2007 appropriations bills passed by the full
                                                                                                                    60
House and by the Senate Appropriations                             $40
                                                                                                                    40
Committee      provide    for     $117 million.                    $20
                                                                                                                    20
[Figure 37]                                                         $0                                              0
                                                                          FY01 FY02 FY03 FY04 FY05 FY06 FY07*
                                                  *President's proposed FY '07                   Appropriations
                                                  budget $50 m illion                            Subsidized Communities




Exhibit A. Summary of Airline Industry Metrics
                                                                                                    23


EXHIBIT B. SCOPE AND METHODOLOGY

Data represented graphically in the report were collected from the following
primary sources: the Air Transport Association (ATA), the Federal Aviation
Administration (FAA), the Bureau of Transportation Statistics (BTS), and the
Office of Aviation Analyses (OAA). The ATA is a trade association of U.S.
certificated air carriers. FAA, BTS, and OAA are organizations within the
Department of Transportation. These sources were used to perform the analyses
detailed below.

We note that we did not systematically audit or validate the data contained in any
of the databases. However, we conducted trend analyses and sporadic checks of
the data to assess reasonableness and comprehensiveness. When our judgmental
sampling identified anomalies or apparent limitations in the data, we held
discussions with managers responsible for maintaining the databases to understand
and attempt to resolve the inconsistencies. Consequently, we did not perform
sufficient tests to draw conclusions or form an opinion on the completeness or
accuracy of the data sources.

We met periodically with staff from ATA, FAA, BTS, and OAA to discuss data
issues and obtain feedback on modifications we made to existing data in order to
more accurately represent industry trends. We used a definition of a regional jet
based on size, operational, and ownership criteria that differ from those used by
other industry and government entities. We sought feedback on the definition and
adjusted data sets to reflect our revised definition. In addition, we classified our
set of low-cost carriers to include America West Airlines, whose costs per
available seat mile are consistent with other low-cost carriers. In some of our
prior reports on industry conditions, we included America West Airlines as a
network carrier.

A.       Analyses Performed With ATA Data

Financial, traffic, and operational statistics obtained from ATA sources were used
in financial and statistical analyses of history, trends, status, and performance of
fuel expenses and unit revenues.

     1. ATA Monthly Passenger Yield Report. A collection of current and historic
     airline yield statistics (passenger revenue per revenue passenger-mile). Scope:
     selected member airlines of the ATA, 1980 through June 2006.13

13
     Data for “Domestic Yield for Seven Major Airlines” (Figure 25) includes the following major network
     air carriers: Alaska Airlines, American Airlines, Continental Airlines, Delta Airlines, Northwest
     Airlines, United Airlines, and US Airways (includes America West).


Exhibit B. Scope and Methodology
                                                                                                24


     2. ATA Monthly Fuel Report. A publication of monthly airline fuel
     consumption and cost data collected and reported by BTS. Scope: all U.S.
     certificated airlines required to report fuel cost and consumption reports (DOT
     Form 41, Schedule P-12), 1986 through May 2006. 14

B.       Analyses Performed With BTS Data

Financial, traffic, operational statistics, and passenger ticket survey information
obtained from BTS sources were used in financial and statistical Analyses of
history, trends, status and performance of financial condition, net profits and
losses, debt and investment, load factors, and business and leisure travel
characteristics.

     1. Air Carrier Financial Statistics. A compilation of financial reports
        submitted by air carriers as required under Title 14 Code of Federal
        Regulations (CFR) Part 241 (Form 41) and through hardcopy in the public
        reference room of the Office of Airline Information. Scope: all certificated
        U.S. air carriers, 2001 through the quarter ended March 31, 2006.

     2. Air Carrier Traffic Statistics. A compilation of traffic and capacity reports
        submitted by air carriers as required under 14 CFR Part 241 (Form 41).
        Scope: all certificated U.S. air carriers (passenger and cargo), commuter air
        carriers, and foreign air carriers operating to and from the United States,
        2000 through March 2006.

     3. Origin and Destination Survey of Passenger Travel (O&D Survey). A
        compilation of surveyed ticket information submitted quarterly as required
        under 14 CFR Part 241 (Form 41). Scope: 10-percent sample of tickets
        used by passengers; 1993 through the fourth quarter 2005.

C.       Analyses Performed With DOT-OAA Data

Financial, traffic and operational statistics obtained from DOT sources were used
in financial and statistical Analyses of history, trends, status and performance of
airline revenues, expenses, profits, traffic and capacity and of the Essential Air
Service Program.

     1. Airlines Quarterly Financial Review. A quarterly report analyzing the
        financial and operating performance and condition of the major airlines in

14
     Data for “Cost per Gallon Domestic Jet Fuel” (Figure 32) include all major, national, and large
     regional U.S. airlines that report to DOT.


Exhibit B. Scope and Methodology
                                                                                 25

        the U.S. Prepared using financial and traffic statistics reported to BTS by
        the airlines. Scope: 17 major air carriers (17 passenger and 2 all-cargo
        carriers), second quarter 1995 through the first quarter 2006.

     2. Essential Air Service Program (EAS).    Information on EAS budgets and
        number of communities served was supplied to the OIG by EAS program
        administrators. Scope: budget and program activity for Fiscal Years 2001
        through 2006 as well as the Administration’s budget proposal for Fiscal
        Year 2007 and figures for full House and Senate committee appropriations
        for EAS.

     3. Domestic Airline Fares Consumer Report. Table 6 of this quarterly report
        supplies the average air fare paid by passengers traveling in distinct
        airport-pair markets with an average of 10 or more daily passengers.
        Prepared using the DOT Domestic edition of the Origin and Destination
        Survey of Passenger Travel (O&D Survey). Scope: A ten percent sample
        of tickets of passengers traveling on domestic flights within the 48 states,
        quarterly from 1999.

D.      Analyses Performed With FAA Data

Air Traffic Control (ATC) delay and operational statistics as well as airline flight
schedule data obtained from FAA sources were used in statistical Analyses of
history, trends, status and performance of air traffic control management and
delays; airline scheduled capacity, operations and market share; aircraft type
usage; and the Aviation Airport and Airway Trust Fund.

     1. Flight Schedule Data System (FSDS). A database of published airline flight
        schedules. Scope: worldwide, 1995 through July 2006.

     2. Aviation System Performance Metrics (ASPM). A database of FAA air
        traffic control performance measures including delays, cancellations,
        operations, and causes for delays. Scope: 55 major airports across the
        country and all air route traffic control centers, 1998 through May 2006.

     3. Operations Net (OPSNET) – Center. A database of air route traffic control
        center aircraft movement operations handled by the various air route traffic
        control centers. Scope: 22 air route traffic control centers, 1990 through
        June 2006.

     4. Aviation Airport and Airway Trust Fund. Actual and estimated revenues
        for the Trust Fund were obtained by OIG staff from the FAA.
        Scope: actual revenues and uncommitted Trust Fund balances for Fiscal


Exhibit B. Scope and Methodology
                                                                                  26

       Years 2001 through and 2005; estimates of revenue and uncommitted Trust
       Fund balances for Fiscal Year 2006 prepared in December 2005.

Terms and Definitions for the Current Report

Business Travel – Business travel is measured by the percent of ticket coupons in
the Origin and Destination Survey of Passenger Travel with fare codes that are
typically used in business travel compared to all ticket coupons used. Fare codes
typically used for business travel include restricted and unrestricted first and
business class travel and unrestricted coach class travel. The count of business
fare code ticket coupons in the O&D Survey is adjusted to take restricted “first
class” fare coded ticket coupons out of the business category for carriers with
single class service.

Hub Airport – A ranking designation of U.S. airports by the FAA based on the
airport’s percentage share of total passenger enplanements at all U.S. airports.
The FAA categorizes airports based on the following criteria:

       Percentage of Annual Passenger Enplanements in the U.S. by Hub Type:

       Large Hub            1.0% or more of total enplanements
       Medium Hub           at least 0.25%, but less than 1%
       Small Hub            at least 0.05%, but less than 0.25%
       Non-hub              at least 2,500, but less than 0.05%

Large Jet – For the purposes of the Aviation Industry Performance report, large
jets are all commercially operated jet transport aircraft other than those defined as
regional jets.

Low-cost Carrier – For the purposes of the Aviation Industry Performance report,
the category low-cost carrier includes: AirTran, America West, American Trans
Air (ATA), Frontier Airlines, JetBlue Airways, National Airlines, Pan American
Airways, Southwest Airlines, Spirit Airlines, Sun Country, and Vanguard Airlines.
However, Vanguard Airlines and National Airlines ceased operations in July 2002
and November 2002, respectively; Pan American ceased operations in 1998.

Major passenger airline – Except where noted, for the Aviation Industry
Performance report, the category major passenger airline includes: AirTran
Airways, Alaska Airlines, America West Airlines, American Airlines, American
Eagle Airlines, ATA, Inc., Atlantic Southeast Airlines, Comair, Continental
Airlines, Delta Air Lines, ExpressJet, JetBlue, Northwest Airlines, SkyWest,




Exhibit B. Scope and Methodology
                                                                                                      27

Southwest Airlines, United Airlines, and US Airways. 15 AirTran, Atlantic
Southeast, and Skywest were added to the list in the first quarter of 2006.

Network airline – For the purposes of the Aviation Industry Performance report,
the category network airline includes: Alaska Airlines, American Airlines,
Continental Airlines, Delta Air Lines, Northwest Airlines, United Airlines, and US
Airways. For the purposes of consistency over time, the financial and operating
statistics for the former Trans World Airlines have been merged with those of the
acquirer American Airlines.

Other airlines – Except where noted, for the purposes of Aviation Industry
Performance report, the category other airlines includes: all scheduled U.S.
airlines not included in the network and low-cost categories, i.e., mostly smaller
scheduled regional, commuter, and national airlines (many of which are affiliated
with the major network carriers).

Regional carrier – An entity whose fleet is principally comprised of aircraft
configured with fewer than 100 seats, operated within a limited geographic scope
(may have multiple regions, though not interlinked across the country under its
own single brand), principally serving hub-and-spoke networks, and conducting
most of its operations under the affiliation(s) of larger branded airlines (network
carriers). For the purposes of this report, we also consider internal mainline
operating units that are principally involved in regional operations as regional
carriers.

Regional Jet (RJ) – All turbofan jet-powered aircraft configured to seat 77 or
fewer passengers, operated by either a regional or network carrier, and all turbofan
jet-powered aircraft configured to seat between 78 and 100 passengers and
operated by regional carriers.

Regions – For purposes of the airline performance report, the Nation was
delineated into four regions composed of states and the District of Columbia:
Northeast: Maine, New Hampshire, Vermont, Massachusetts, Rhode Island,
Connecticut, New York, New Jersey, and Pennsylvania; Midwest: Ohio, Indiana,
Illinois, Michigan, Wisconsin, Minnesota, Iowa, Missouri, North Dakota, South
Dakota, Nebraska, and Kansas; South Region: Delaware, Maryland, Virginia,
West Virginia, North Carolina, South Carolina, Georgia, Florida, Kentucky,
Tennessee, Alabama, Mississippi, Arkansas, Louisiana, Oklahoma, Texas and
District of Columbia; West: Montana, Idaho, Wyoming, Colorado, New Mexico,
Arizona, Utah, Nevada, Washington, Oregon, California, Alaska, and Hawaii.

15
     ATA, Inc. was excluded from first quarter 2006 financial analyses due to delinquent reporting.




Exhibit B. Scope and Methodology
                                                        28




EXHIBIT C. MAJOR CONTRIBUTORS TO THIS
REPORT
THE FOLLOWING INDIVIDUALS CONTRIBUTED TO THIS REPORT.



   Name                            Title



   Leila D. Kahn                   Program Director

   Stephen G. Smith                Project Manager

   Ralph W. Morris                 Economist

   Gina Ronzello                   Analyst

   Meredith McDaniel               Analyst

   Leslie Riegle                   Consultant




Exhibit C. Major Contributors
The following pages contain textual versions of the graphs and charts
contained in this document. These pages were not a part of the original
document but have been added here to accommodate assistive technology.

Figure I: Cost per Available Seat Mile Excluding Fuel
Fourth Quarter 2000 through Fourth Quarter 2004
(DOT Domestic Quarterly Data)
     Quarter Year         Network Carriers        Low-Cost Carriers
Fourth Quarter 2000            9.39¢                   6.49¢
First Quarter 2001             9.74¢                   6.46¢
Second Quarter 2001            9.67¢                   6.55¢
Third Quarter 2001            10.20¢                   6.39¢
Fourth Quarter 2001           10.45¢                   7.04¢
First Quarter 2002            10.06¢                   6.44¢
Second Quarter 2002            9.57¢                   6.38¢
Third Quarter 2002             9.34¢                   6.14¢
Fourth Quarter 2002            9.64¢                   6.21¢
First Quarter 2003             9.88¢                   6.09¢
Second Quarter 2003            9.36¢                   6.24¢
Third Quarter 2003             8.69¢                   6.00¢
Fourth Quarter 2003            9.16¢                   6.13¢
First Quarter 2004             8.93¢                   6.10¢
Second Quarter 2004            8.54¢                   6.13¢
Third Quarter 2004             8.32¢                   5.89¢
Fourth Quarter 2004            8.53¢                   6.76¢
First Quarter 2005             8.36¢                   6.55¢
Second Quarter 2005            7.91¢                   6.03¢
Third Quarter 2005             7.86¢                   6.31¢
Fourth Quarter 2006            8.38¢                   6.43¢


Figure II: Change in Scheduled Flights 2001-2006 Base Year 2000
(FAA Data)


 Month              Percentage Change in Flights from 2000

            2001      2002      2003       2004         2005   2006
Jan          3%       -11%      -10%       -7%          -2%    -6%
Feb          2%       -10%      -11%       -7%          -2%    -8%
Mar          1%       -10%       -11%       -6%        -2%       -6%
Apr          2%        -8%       -10%       -5%        -1%       -6%
May          1%        -8%       -13%       -6%        -2%       -7%
June         1%        -8%       -10%       -5%        -1%       -6%
July         2%        -6%        -8%       -3%         0%
Aug           1%       -7%       -10%       -3%        -2%
Sept          0%      -10%       -10%       -4%        -4%
Oct          -4%      -11%       -10%       -5%        -6%
Nov         -15%      -12%       -10%       -4%        -6%
Dec         -15%      -12%        -8%       -2%        -7%
Notes:
1) Flights reached lowest point at -15% after 9/11.
2) Spring of 2003, the Iraq War and SARS, flights decreased notably
3) Flight schedules flights of July 2005 reached flight schedules flights
of July 2000.
4) In 2005, United, US Airways, Delta and Northwest all in bankruptcy
5) In 2006, fuel up 185 percent from 2000:$2.05 per gallon.


Figure III: Departures by Airport Types
Percent Change in Scheduled Domestic Flights July 2001 through July
2006 compared to July 2000 (FAA Data)
                   At              At             At            At
Month Year     Large-Hub      Medium-Hub      Small-Hub      Non-Hub
                Airports       Airports        Airports      Airports
July 2001          2%              4%             3%           -5%
July 2002         -7%             -5%            -5%          -12%
July 2003         -9%             -6%            -5%          -13%
July 2004         -3%             -4%            -1%          -20%
July 2005          0%             -2%             1%          -21%
July 2006         -5%             -4%            -7%          -26%
Note: July 2006 Non-Hub flights down 26 percent compared to July
2000.
Note: All percentages are rounded.


Table 1. Changes in Traffic and Current Delays at Select Airports
January 2000 to May 2000 versus January 2006 to May 2006
(FAA Data)
Reduced Delays
                       Change in   Change in     Percent change
      Airport           arrivals    delays       January to May
                                                      2006
 Cincinnati (CVG)        -23%        -52%             14%
 Saint Louis (STL)       -58%        -53%             18%
  Pittsburgh (PIT)       -40%        -53%             19%
Increased Delays
                       Change in   Change in     Percent change
      Airport           arrivals    delays       January to May
                                                      2006
Salt Lake City (SLC)     20%         25%              20%
   Houston (IAH)         30%         56%              23%
 Memphis (MEM)           12%         59%              24%


Figure 1: Passenger Enplanements 2000-2005
Scheduled Service System-Wide (DOT Data)
              Number of
   Year      Enplanements
               (millions)
   2000          698.9
   2001          652.9
   2002          641.0
   2003          647.5
   2004          703.7
   2005          738.6


Figure 2: Domestic Revenue Passenger-Miles and Available Seat-Miles
from 2000-2006 (BTS Data)
                            Traffic (Revenue
                                                  Capacity (Available
    Quarter Year           Passenger-Miles) in
                                                 Seat-Miles) in billions
                                 billions
First Quarter 2000                 123                    184
Second Quarter 2000                139                    186
Third Quarter 2000                 140                    193
Fourth Quarter 2000                129                    189
First Quarter 2001                 125                      187
Second Quarter 2001                138                      193
Third Quarter 2001                 131                      188
Fourth Quarter 2001                108                      165
First Quarter 2002                 114                      168
Second Quarter 2002                129                      180
Third Quarter 2002                 134                      188
Fourth Quarter 2002                122                      178
First Quarter 2003                 118                      173
Second Quarter 2003                130                      175
Third Quarter 2003                 138                      183
Fourth Quarter 2003                129                      182
First Quarter 2004                 130                      186
Second Quarter 2004                147                      192
Third Quarter 2004                 151                      196
Fourth Quarter 2004                140                      192
First Quarter 2005                 139                      189
Second Quarter 2005                155                      197
Third Quarter 2005                 158                      200
Fourth Quarter 2005                143                      189
First Quarter 2006                 141                      185
Note: Capacity trend line increasing steadily from first quarter 2000 to
first quarter 2006. The traffic trend line is increasing at a more rapid
rate for this same time period.
Note: First quarter of 2000, the load factor was 67 percent. The load
factor in the first quarter of 2006 was 77 percent.
Note: All numbers are rounded


Figure 3: Domestic and International Revenue Passenger-Miles
From 2000-2006 (BTS Data)
                            Domestic Traffic        International Traffic
     Quarter Year         (Revenue Passenger-      (Revenue Passenger-
                            Miles) in billions        Miles) in billions
First Quarter 2000                 123                        95
Second Quarter 2000                139                       115
Third Quarter 2000                 140                       126
Fourth Quarter 2000                129                       102
First Quarter 2001                 125                        98
       Second Quarter 2001                 138                        112
       Third Quarter 2001                  131                        111
       Fourth Quarter 2001                 108                         72
       First Quarter 2002                  114                         83
       Second Quarter 2002                 129                         95
       Third Quarter 2002                  134                        104
       Fourth Quarter 2002                 122                         90
       First Quarter 2003                  118                         85
       Second Quarter 2003                 130                         85
       Third Quarter 2003                  138                        105
       Fourth Quarter 2003                 129                         94
       First Quarter 2004                  130                         94
       Second Quarter 2004                 147                        107
       Third Quarter 2004                  151                        117
       Fourth Quarter 2004                 140                        100
       First Quarter 2005                  139                        102
       Second Quarter 2005                 155                        115
       Third Quarter 2005                  158                        125
       Fourth Quarter 2005                 143                        104
       First Quarter 2006                  141                         98
       Note: The trend line for international traffic is increasing very slightly
       from first quarter 2000 to first quarter 2006. The traffic trend line for
       domestic is increasing at a more rapid rate for this same time period.
       Note: All numbers are rounded


       Figure 4: International Passenger Traffic Quarterly Revenue
       Passenger-Miles from First Quarter 2000 to First Quarter 2006
       (BTS Data)
                              Latin Traffic        Atlantic Traffic      Pacific Traffic
                               (Revenue               (Revenue             (Revenue
     Quarter Year
                            Passenger-Miles)      Passenger-Miles)      Passenger-Miles)
                               in billions           in billions           in billions
First Quarter 2000                 18                    45                    31
Second Quarter 2000                17                    63                    35
Third Quarter 2000                 19                    69                    38
Fourth Quarter 2000                16                    52                    34
First Quarter 2001                 19                    46                    33
Second Quarter 2001                17                    61                    34
Third Quarter 2001                16                 60                 34
Fourth Quarter 2001               13                 37                 22
First Quarter 2002                16                 39                 29
Second Quarter 2002               15                 50                 30
Third Quarter 2002                16                 56                 33
Fourth Quarter 2002               14                 46                 30
First Quarter 2003                17                 39                 29
Second Quarter 2003               15                 49                 21
Third Quarter 2003                17                 58                 30
Fourth Quarter 2003               15                 48                 30
First Quarter 2004                19                 44                 31
Second Quarter 2004               17                 57                 33
Third Quarter 2004                19                 63                 35
Fourth Quarter 2004               17                 51                 32
First Quarter 2005                21                 47                 34
Second Quarter 2005               19                 60                 36
Third Quarter 2005                20                 67                 38
Fourth Quarter 2005               17                 52                 35
First Quarter 2006                21                 46                 31
Note: The September 11th impact had a sharp downward affect on all three
areas (Latin, Atlantic and Pacific) in the fourth quarter of 2001.
Note: The SARS epidemic had a negative impact in second quarter, 2003 RPMs
for the Pacific region.
Note: All numbers are rounded


        Figure 5: Nine Major Airlines Reported Arrivals
        Percent Change in Actual Arrivals by Airline May 2006 versus May
        2000 (BTS Data)
                            2006
             Airline     Percentage
                          Change
        Southwest            21%
        Alaska               14%
        America West          1%
        Northwest           -16%
        Continental         -17%
        Delta               -39%
        American            -28%
US Airways            -52%
United                -28%
Note: All percentages are rounded


Figure 6: Regional Differences in Capacity in All Airports
Percent Change in Available Seats at All Airports July 2006 versus
July 2000 (FAA Data)
                                                         Percent
                                                        Change in
                       Region
                                                        Available
                                                          Seats
Northeast     (includes     Connecticut,       Maine,
Massachusetts, New Hampshire, New Jersey, New              -13%
York, Pennsylvania, Rhode Island, Vermont)
Midwest (includes Illinois, Indiana, Iowa, Kansas,
Michigan, Minnesota, Missouri, Nebraska, North             -22%
Dakota, Ohio, South Dakota, Wisconsin)
West (includes Alaska, Arizona, California, Colorado,
Hawaii, Idaho, Montana, Nevada, New Mexico,                -2%
Oregon, Utah, Washington, Wyoming)
South (includes Alabama, Arkansas, Delaware,
Florida, Georgia, Kentucky, Louisiana, Maryland,
                                                           -6%
Mississippi, North Carolina, Oklahoma, South
Carolina, Tennessee, Texas, Virginia, West Virginia)
National Average                                           -9%
Note: All percentages are rounded.


Figure 7: Change in Capacity at Large Airports
Percent Change in Scheduled Flights and Available Seats at the 31
Largest Airports July 2006 vs. July 2000 (FAA Data)
                           Percent Change in         Percent Change in
   Largest Airports      Scheduled Flights July    Scheduled Flights July
                           2006 vs. July 2000        2006 vs. July 2000
       Kennedy                  -0.03%                    32.43%
    Ft. Lauderdale              17.16%                    28.73%
      Las Vegas                 27.13%                    23.63%
        Orlando                  3.27%                    12.99%
       San Diego                  8.00%                     9.20%
         Denver                  19.25%                     8.96%
        Houston                  27.91%                     6.88%
      Philadelphia               10.68%                     4.23%
       Baltimore                 -5.30%                     1.21%
         Tampa                  -10.76%                     1.16%
        Phoenix                   0.86%                    -0.39%
     Salt Lake City              29.63%                    -1.07%
       Charlotte                 12.55%                    -2.10%
   Reagan National                4.78%                    -4.33%
         Atlanta                 12.14%                    -5.09%
       Honolulu                   6.54%                    -5.17%
         Seattle                -18.40%                    -5.88%
       LaGuardia                  7.57%                    -7.31%
         Detroit                 -3.97%                    -9.55%
   Chicago O’Hare                3.78%                    -13.35%
      Minneapolis               -10.04%                   -13.47%
         Dulles                 -30.08%                   -14.16%
        Newark                   -5.91%                   -16.47%
   Dallas-Ft. Worth             -16.54%                   -16.69%
          Miami                 -22.16%                   -17.18%
         Boston                 -20.50%                   -19.25%
      Los Angeles               -21.46%                   -20.98%
    San Francisco               -23.22%                   -26.26%
       Cincinnati               -18.38%                   -38.03%
       Pittsburgh               -52.17%                   -57.44%
        St. Louis               -44.17%                   -57.76%
Note: All percentages are rounded

Figure 8: Length of Domestic Flights
Percent Change in Scheduled Flights by Length of Flight
July 2006 versus July 2000 (FAA Data)

                              2006
   Range in Miles       Percent Change
                           in Flights
0 to 249 miles                -32%
250 to 499 miles               -9%
500 to 999 miles               20%
1,000 miles or more             14%


Figure 9: Short-Haul Flights: Seats by Type of Airline
Available Seats on Flights Less Than 250 Miles
July 2006 versus July 2000 (FAA Data)

Carrier Type   July 2000     July 2006

  Network      6.1 million   2.8 million
 Regionals
               9.6 million   7.3 million
 And Others
  Low-Cost     2.3 million   2.1 million

Figure 10: Domestic and International Air Cargo Traffic
Quarterly Revenue Ton-Miles from First Quarter of 2003 through First
Quarter of 2006 (BTS Data)
                           Domestic Traffic         International Traffic
      Quarter Year       (Revenue Ton-Miles)       (Revenue Ton-Miles)
                              in billions                in billions
First Quarter 2003                 4                          8
Second Quarter 2003                5                          8
Third Quarter 2003                 5                          8
Fourth Quarter 2003                5                          9
First Quarter 2004                 5                          8
Second Quarter 2004                5                          9
Third Quarter 2004                 5                          9
Fourth Quarter 2004                6                         10
First Quarter 2005                 5                          9
Second Quarter 2005                5                          9
Third Quarter 2005                 5                          9
Fourth Quarter 2005                6                         10
First Quarter 2006                 5                          9
Note: All numbers are rounded

Figure 11: Domestic Market Share by Seller Carrier Group
Airline Market Share of Scheduled Available Seats
July 2000, July 2005, and July 2006 (FAA Data)
Carrier Type    July     July     July
               2000     2005    2006
 Network       73%      70%     67%
 Low-Cost      19%      25%     28%
  Others        8%       5%      4%
Note: All percentages are rounded.


Figure 12: Market Share of Low Cost-Carrier Service
Airline Share of Service by Scheduled Available Seats, July 2006
(FAA Data)

                         Market Share
  Low-Cost Airline
                          Percentage
Southwest                    57%
America West                 13%
AirTran                      11%
JetBlue                       9%
American Trans Air            1%
Frontier                      4%
Spirit                        2%
Sun Country                   1%
Note: All percentages are rounded.


Figure 13: Share of Low-Cost Carrier Service Growth
Airline Share of Growth by Scheduled Available Seats, From July 1998
to July 2006
(FAA Data)
                      Service Growth
 Low-Cost Airline
                       Percentages
Southwest                  42%
JetBlue                    20%
AirTran                    16%
Frontier                   10%
America West                7%
Spirit                      3%
Sun Country                 1%
Note: All percentages are rounded.
Figure 14: Market Share by Aircraft Type
Percent Share of Scheduled Flights by Type of Aircraft July 2000, July
2005, and July 2006 (FAA Data)
                       July         July          July
  Aircraft Type
                       2000         2005          2006
Large Jets             56%          49%           49%
Regional Jets          10%          32%           33%
Non-Jet                34%          19%           18%
Note: All percentages are rounded.


Figure 15: Actual Flight Operations
Percent Change from 2000 in Air Route Traffic Control Operations
(FAA Data)
              2001         2002         2003          2004         2005         2006
             Percent      Percent      Percent       Percent      Percent      Percent
  Month     Change in    Change in    Change in     Change in    Change in    Change in
            Operations   Operations   Operations    Operations   Operations   Operations
January          5%           -3%            0%           2%         5%           3%
March            -4%          -8%          -10%          0%         0%           -4%
March            -2%          -7%           -7%          1%         4%            0%
April            0%           -3%           -5%           3%         4%           1%
May              -1%          -4%           -7%          -1%         3%           0%
June             -3%          -4%           -6%           1%         4%           0%
July             1%           -1%           -2%           3%         4%
August           0%           -4%           -6%           1%         2%
September       -16%          -5%           -5%           0%         2%
October          -8%          -4%           -3%           1%        -2%
November         -8%          -7%           -4%           2%         0%
December         -5%          -1%            3%           7%         5%
Note: September 2001 Actual Flight Operations Down 16 Percent
Note: June 2006 Actual Flight Operations Up .03 Percent
Note: All percentages are rounded


Figure 16: Number of Flights with Delayed Arrivals
All Airlines, 55 Major Airports (FAA Data)
   Month          2000         2005          2006
               Arrival      Arrival     Arrival
               Delays       Delays      Delays
January        158,982      194,458     150,925
February       152,326      152,706     138,232
March          154,507      174,718     156,164
April          154,472      125,868     141,463
May            160,781      125,510     139,535
June           200,301      176,498
July           183,866      203,071
August         195,624      176,411
September      150,585      124,360
October        167,005      139,069
November       179,700      147,864
December       235,929      203,741
Note: First Five months 2006 versus 2000 down 7 percent


Figure 17: Cancellations
All Airlines, 55 Major Airports (FAA Data)
                  2000             2005            2006
   Month
              Cancellations    Cancellations   Cancellations
January          21,170           28,892          12,771
February         13,074           12,494          13,681
March             8,859           13,191           9,489
April            10,050           6,827           7,715
May              14,474           6,598           8,641
June             16,214           12,085
July             13,458           13,748
August           13,284           13,169
September        16,507           13,831
October          17,943           14,123
November         17,511            9,244
December         42,675           15,330
Note: First Quarter 2006 versus First Quarter 2000 Down -17 percent
Note: May 2006 versus May 2000 Down -40 percent


Figure 18: Percent of Flights Arriving Late
All Airlines, 55 Major Airports (FAA Data)
  Month          2000        2005            2006
January          25%         29%             23%
February         24%         24%             24%
March            22%         24%             24%
April            23%         18%             22%
May              23%         17%             22%
June             30%         25%
July             27%         28%
August           28%         24%
September        23%         18%
October          24%         20%
November         27%         22%
December         36%         30%
Note: 1st five months 2006 up 23 percent
Note: December 2000 36 Percent of Flights Arrived Late


Figure 19: Length of Arrival Delays
All Airlines, 55 Major Airports (FAA Data)
                  2000           2005              2006
   Month
              (In Minutes)   (In Minutes)      (In Minutes)
January            49             54                52
February           49             50                50
March              48             52                55
April              49             48                54
May                53             49                55
June               55             56
July               54             60
August             52             53
September          49             48
October            48             51
November           48             50
December           55             52
Note: May 2005 Arrivals Delayed 49 Minutes
Note: May 2006 Arrivals Delayed 55 Minutes


Figure 20: Most Significant Changes in Arrival Delays by Airport
Percent Change in Arrival Delays for Year-to-Date May 2006 versus
May 2000 (FAA Data)

      Airport         Percent Change
Memphis                     59%
Houston                     56%
Salt Lake City              25%
Cincinnati                  -52%
Pittsburgh                  -53%
Saint Louis                 -53%
Note: Numbers are rounded


Figure 21: Revenues versus Expenses
Major Passenger Carriers Operating Revenues and Operating
Expenses First Quarter 2001 through First Quarter 2006 (DOT Data)
                            Operating        Operating
          Quarter           Revenues         Expenses
                            In Billions      In Billions
First Quarter 2001             $23.3            $24.1
Second Quarter 2001            $24.3            $25.0
Third Quarter 2001             $21.2            $24.4
Fourth Quarter 2001            $16.6            $20.9
First Quarter 2002             $18.2            $20.9
Second Quarter 2002            $20.4            $21.9
Third Quarter 2002             $20.2            $22.6
Fourth Quarter 2002            $18.8            $21.7
First Quarter 2003             $19.2            $22.2
Second Quarter 2003            $20.3            $21.0
Third Quarter 2003             $21.9            $21.3
Fourth Quarter 2003            $21.0            $21.7
First Quarter 2004             $22.0            $23.0
Second Quarter 2004            $24.7            $23.3
Third Quarter 2004             $24.9            $24.3
Fourth Quarter 2004            $23.4            $25.5
First Quarter 2005             $23.9            $25.4
Second Quarter 2005            $27.2            $26.7
Third Quarter 2005             $28.1            $28.0
Fourth Quarter 2005             $26.3              $27.7
First Quarter 2006              $26.3              $26.7
Note: All amounts are rounded


Figure 22: Selected Network and Low-Cost Carriers Operating Profit or
Loss
System Operations for Quarter Ending March 31, 2006 (DOT Data)
                         Profit or Loss
        Airline
                          (In Millions)
Southwest                      $98.1
America West                  $82.8
JetBlue                       -$24.9
Frontier                       -$8.6
Spirit                        -$10.0
Air Tran                       -$4.5
American                      $52.4
Alaska                       -$147.9
US Airways                     $42.9
Continental                    -$2.5
United                       -$167.7
Northwest                      -$7.0
Delta                        -$481.0


Figure 23: Accumulated Net Losses and Gains
First Quarter 2001 Cumulatively through First Quarter 2006
(DOT Data)
                        Network Carriers      Low-Cost Carriers
    Quarter Year        Cumulative Sum         Cumulative Sum
                        Dollars in Billions   Dollars in Billions
First Quarter 2001              -$1                  $0.1
Second Quarter 2001            -$1.8                 $0.2
Third Quarter 2001             -$4.2                 $0.3
Fourth Quarter 2001            -$7.4                 $0.2
First Quarter 2002            -$10.4                -$0.2
Second Quarter 2002           -$11.9                -$0.2
Third Quarter 2002            -$14.5                -$0.2
Fourth Quarter 2002           -$18.5                -$0.3
First Quarter 2003            -$20.4                -$0.3
Second Quarter 2003          -$20.7                 $0.2
Third Quarter 2003           -$21.2                $0.3
Fourth Quarter 2003          -$21.8                 $0.4
First Quarter 2004           -$23.4                $0.4
Second Quarter 2004          -$25.8                 $0.5
Third Quarter 2004           -$27.2                $0.5
Fourth Quarter 2004          -$29.7                -$0.1
First Quarter 2005           -$32.8                -$0.3
Second Quarter 2005           $34.8                -$0.2
Third Quarter 2005            $37.5                -$0.2
Fourth Quarter 2005           $57.6                -$0.5
First Quarter 2006            $38.5                -$0.4
Note: Fourth Quarter 2005 - Since the first quarter of 2001 Network
Carriers Have Accumulated Net Losses of 58 billion Dollars
Note: First Quarter 2006 - Since the first quarter of 2001 Network
Carriers Have Accumulated Net Losses of 38 billion Dollars
Note: First Quarter 2006 - Since the first quarter of 2001 Low-Cost
Carriers Have Accumulated 392 million Dollars in Net Losses
Note: Numbers are rounded


Figure 24: Cost per Available Seat Mile (CASM)
First Quarter 2001 through First Quarter 2006
(DOT Domestic Quarterly Data)
      Quarter Year        Network Carriers       Low-Cost Carriers
First Quarter 2001             11.9¢                  8.0¢
Second Quarter 2001            11.8¢                  8.0¢
Third Quarter 2001             12.3¢                  7.8¢
Fourth Quarter 2001            12.3¢                  8.2¢
First Quarter 2002             12.0¢                  7.6¢
Second Quarter 2002            11.5¢                  7.7¢
Third Quarter 2002             11.3¢                  7.4¢
Fourth Quarter 2002            11.8¢                  7.5¢
First Quarter 2003             12.2¢                  7.6¢
Second Quarter 2003            11.5¢                  7.5¢
Third Quarter 2003             10.9¢                  7.3¢
Fourth Quarter 2003            11.4¢                  7.5¢
First Quarter 2004             11.3¢                  7.6¢
Second Quarter 2004            11.1¢                  7.7¢
Third Quarter 2004                11.1¢                   7.6¢
Fourth Quarter 2004               11.7¢                   8.6¢
First Quarter 2005                11.4¢                   8.4¢
Second Quarter 2005               11.3¢                   8.3¢
Third Quarter 2005                11.6¢                   8.7¢
Fourth Quarter 2006               12.5¢                   8.9¢
First Quarter 2006                12.5¢                   8.7¢
Note: All amounts are rounded


Figure 25: Domestic Yield for Seven Major Airlines
Percent Change in Airline Yield from 2000 (ATA Data)

            2001        2002        2003       2004        2005      2006
              %           %           %          %          %         %
 Month
          Change      Change      Change     Change     Change     Change
          in Yield    in Yield    in Yield   in Yield   in Yield   in Yield
Jan           4%        -13%        -15%       -15%       -22%      -15%
Feb           0%        -14%        -17%       -18%       -24%      -14%
Mar          -3%        -16%        -18%       -17%       -21%      -13%
Apr          -3%        -14%        -18%       -18%       -20%      -10%
May          -7%        -16%        -19%       -21%       -21%      -12%
June         -9%        -18%        -19%       -21%       -18%       -8%
July        -10%        -18%        -15%       -18%       -14%
Aug         -13%        -21%        -17%       -22%       -18%
Sept        -18%        -17%        -16%       -26%       -20%
Oct         -19%        -18%        -18%       -27%       -21%
Nov         -16%        -20%        -18%       -22%       -16%
Dec         -15%        -16%        -14%       -21%       -15%
Note: June 2006 Yield Down -8 Percent


Figure 26: Average Short-. Medium-, and Long-Haul Fares Fourth
Quarter 2000-2005
Fares for 100 mi, 300 mi, and 1500 mi average distances (DOT Data)
  Fiscal Year        Short Haul       Medium Haul        Long Haul
     2000              $116              $177              $226
     2001               $99              $154              $195
     2002              $106              $162              $196
     2003             $112            $161            $195
     2004             $109            $154            $182
     2005             $119            $162            $197


Figure 27: Use of Business Fares
Passengers Using Business Fares First Quarter 2000 through Fourth
Quarter 2005 (BTS Data)
                       Percent of Passengers
       Quarter
                       Using Business Fares
First Quarter 2000              21%
Second Quarter 2000             19%
Third Quarter 2000              18%
Fourth Quarter 2000             16%
First Quarter 2001              15%
Second Quarter 2001             14%
Third Quarter 2001              12%
Fourth Quarter 2001             12%
First Quarter 2002              13%
Second Quarter 2002             12%
Third Quarter 2002              12%
Fourth Quarter 2002             13%
First Quarter 2003              14%
Second Quarter 2003             14%
Third Quarter 2003              14%
Fourth Quarter 2003             14%
First Quarter 2004              13%
Second Quarter 2004             12%
Third Quarter 2004              12%
Fourth Quarter 2004             12%
First Quarter 2005              11%
Second Quarter 2005             10%
Third Quarter 2005              10%
Fourth Quarter 2005             10%

Figure 28: Passenger Load Factors
Actual versus Breakeven Percentages Fourth Quarter 2000 through
Fourth Quarter 2005 (DOT Data)
                          Actual
        Quarter            Load       Breakeven
                          Factor     Load Factor
First Quarter 2000         69%           68%
Second Quarter 2000        76%           67%
Third Quarter 2000         76%           71%
Fourth Quarter 2000        70%           72%
First Quarter 2001         68%           74%
Second Quarter 2001        74%           76%
Third Quarter 2001         72%           88%
Fourth Quarter 2001        66%           90%
First Quarter 2002         70%           85%
Second Quarter 2002        74%           83%
Third Quarter 2002         74%           87%
Fourth Quarter 2002        71%           86%
First Quarter 2003         69%           84%
Second Quarter 2003        75%           79%
Third Quarter 2003         78%           75%
Fourth Quarter 2003        73%           77%
First Quarter 2004         72%           75%
Second Quarter 2004        78%           77%
Third Quarter 2004         79%           83%
Fourth Quarter 2004        75%           88%
First Quarter 2005         75%           85%
Second Quarter 2005        80%           81%
Third Quarter 2005         81%           83%
Fourth Quarter 2005        77%           86%
Note: All percentages are rounded.


Figure 29: Actual Airline Load Factors
Actual Percentages for Fourth Quarter 2005 (DOT Data)
                         Actual
       Airline            Load
                         Factor
Southwest                69.6%
Delta                    74.3%
America West             77.5%
American                 78.0%
Continental              78.4%
Northwest                81.6%
United                   80.2%
US Airways               72.9%
Alaska                   73.9%
JetBlue                  81.1%


Figure 30: Debt-to-Investment Ratio All Major Airlines
First Quarter 2001 through First Quarter 2006 (DOT Data)
                             Ratio
        Quarter
                         (Percentage)
First Quarter 2001           54%
Second Quarter 2001          54%
Third Quarter 2001           60%
Fourth Quarter 2001          66%
First Quarter 2002           68%
Second Quarter 2002          70%
Third Quarter 2002           73%
Fourth Quarter 2002          87%
First Quarter 2003           88%
Second Quarter 2003          83%
Third Quarter 2003           84%
Fourth Quarter 2003          84%
First Quarter 2004           85%
Second Quarter 2004          83%
Third Quarter 2004           84%
Fourth Quarter 2004          88%
First Quarter 2005           92%
Second Quarter 2005          110%
Third Quarter 2005           122%
Fourth Quarter 2005          193%
First Quarter 2006           99%
Note: All percentages are rounded


Figure 31: Debt-to-Investment Ratio by Airline
For the Quarter Ending March 31, 2006 (DOT Data)
                      Ratio
   Airlines
                  (Percentage)
Southwest             22%
Alaska                64%
America West         112%
Northwest            254%
Continental           79%
American             111%
US Airways           112%
Delta               -265.7%
United               85.8%


Figure 32: Cost per Gallon Domestic Jet Fuel (ATA Data)
               2001      2002       2003       2004        2005         2006
  Month       Average   Average    Average    Average     Average      Average
               Cost      Cost       Cost       Cost        Cost         Cost
January        $0.86     $0.60      $0.84      $0.95       $1.31        $1.79
February       $0.85     $0.62      $0.88      $0.97       $1.32        $1.82
March          $0.80     $0.62      $1.05      $0.98       $1.45        $1.81
April          $0.77     $0.69      $0.83      $1.00       $1.56        $1.90
May            $0.78     $0.70      $0.76      $1.08       $1.52        $2.05
June           $0.81     $0.67      $0.75      $1.07       $1.56
July           $0.77     $0.71      $0.78      $1.10       $1.61
August         $0.77     $0.72      $0.83      $1.18       $1.79
September      $0.79     $0.77      $0.80      $1.24       $1.90
October        $0.71     $0.81      $0.82      $1.39       $2.15
November       $0.66     $0.77      $0.84      $1.37       $1.86
December       $0.57     $0.76      $0.88      $1.28       $1.70
Note: May 2002 Jet Fuel Cost was $0.70
Note: May 2006 Jet Fuel Cost was $2.05
Note: Numbers are rounded


Figure 33: Airport and Airway Trust Fund
FAA Budget and Funding Fiscal Years 2001-2006 in Billions (FAA Data)
  Fiscal Year       Trust Fund      FAA Budget       Uncommitted
                     Revenues           Request            Balance
     2001              $10.1             $11.2              $7.3
     2002              $9.9              $13.3              $4.8
     2003              $9.3              $13.6              $3.9
     2004              $9.7              $13.9              $2.4
     2005              $10.7             $13.9              $1.9
     2006              $11.1             $14.3              $1.7
Note: Figures for Fiscal Year 2006 are estimated.


Figure 34: Changes in Service by Airport Size
Percent Change in Scheduled Flights and Available Seats July 2006
versus July 2000 (FAA Data)
From                        Flights         Seats
Large                         -5%            -9%
Medium                        -4%            -8%
Small                         -7%           -13%
Non-Hub                      -26%           -18%


Figure 35: Access to Large Airports
Percent Change in Number of Scheduled Flights and Seats July 2006
versus July 2000 (FAA Data)
To Large Airports           Flights           Seats
Large                       -4.96%           -9.87%
Medium                       3.66%           -6.30%
Small                        1.03%           -9.30%
Non-Hub                    -22.61%          -12.51%
Note: All percentages are rounded


Figure 36: Regional Differences in Service at Non-Hubs
Percent Change in Available Seats at Non-Hub Airports
July 2006 versus July 2000 (FAA Data)
                                                         Percent Change
                       Region                              in Available
                                                              Seats
Northeast     (includes      Connecticut,       Maine,         -36%
Massachusetts, New Hampshire, New Jersey, New
York, Pennsylvania, Rhode Island, Vermont)
Midwest (includes Illinois, Indiana, Iowa, Kansas,
Michigan, Minnesota, Missouri, Nebraska, North              -32%
Dakota, Ohio, South Dakota, Wisconsin)
South (includes Alabama, Arkansas, Delaware,
Florida, Georgia, Kentucky, Louisiana, Maryland,
                                                            -17%
Mississippi, North Carolina, Oklahoma, South
Carolina, Tennessee, Texas, Virginia, West Virginia)
West (includes Alaska, Arizona, California, Colorado,
Hawaii, Idaho, Montana, Nevada, New Mexico,                 -11%
Oregon, Utah, Washington, Wyoming)
National Average                                            -21%
Note: All percentages are rounded.
Note: Excludes US possessions and territories


Figure 37: Essential Air Service
Congressional Funding and Subsidized Communities Fiscal Year 2001
through Fiscal Year 2007 (DOT Data)
                                                         Number of
                                   Appropriations
           Fiscal Year                                  Communities
                                     In Millions
                                                         Subsidized
              2001                      $50                 115
              2002                      $113                123
              2003                      $102                125
              2004                      $102                138
              2005                      $106                152
              2006                      $109                153
             2007 *                     $50                 88
Note: President’s proposed FY 2007 Budget.
